<html>
<title> - PROTECTING OUR DEMOCRACY: REASSERTING CONGRESS' POWER OF THE PURSE</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                       PROTECTING OUR DEMOCRACY:
                REASSERTING CONGRESS' POWER OF THE PURSE

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION
                               __________

            HEARING HELD IN WASHINGTON, D.C., APRIL 29, 2021
                               __________

                            Serial No. 117-2
                               __________

           Printed for the use of the Committee on the Budget
           
           
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on the Internet:
                            www.govinfo.gov                            
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
44-771                     WASHINGTON : 2021                               
                            




                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
HAKEEM S. JEFFRIES, New York         JASON SMITH, Missouri,
BRIAN HIGGINS, New York                Ranking Member
BRENDAN F. BOYLE, Pennsylvania,      TRENT KELLY, Mississippi
  Vice Chairman                      TOM McCLINTOCK, California
LLOYD DOGGETT, Texas                 GLENN GROTHMAN, Wisconsin
DAVID E. PRICE, North Carolina       LLOYD SMUCKER, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       CHRIS JACOBS, New York
DANIEL T. KILDEE, Michigan           MICHAEL BURGESS, Texas
JOSEPH D. MORELLE, New York          BUDDY CARTER, Georgia
STEVEN HORSFORD, Nevada              BEN CLINE, Virginia
BARBARA LEE, California              LAUREN BOEBERT, Colorado
JUDY CHU, California                 BYRON DONALDS, Florida
STACEY E. PLASKETT, Virgin Islands   RANDY FEENSTRA, Iowa
JENNIFER WEXTON, Virginia            BOB GOOD, Virginia
ROBERT C. ``BOBBY'' SCOTT, Virginia  ASHLEY HINSON, Iowa
SHEILA JACKSON LEE, Texas            JAY OBERNOLTE, California
JIM COOPER, Tennessee
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
SETH MOULTON, Massachusetts
PRAMILA JAYAPAL, Washington

                           Professional Staff

                      Ellen Balis, Staff Director
                  Mark Roman, Minority Staff Director
                                CONTENTS

                                                                   Page
Hearing held in Washington, D.C., April 29, 2021.................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     4
        Letter submitted for the record..........................     6
    Hon. Jason Smith, Ranking Member, Committee on the Budget....     8
        Prepared statement of....................................    10
        Letters submitted for the record.........................    89
    Molly E. Reynolds, Senior Fellow, Governance Studies, The 
      Brookings Institution......................................    14
        Prepared statement of....................................    17
    Liz Hempowicz, Director of Public Policy, Project On 
      Government Oversight.......................................    22
        Prepared statement of....................................    24
    Edda Emmanuelli Perez, Deputy General Counsel, U.S. 
      Government Accountability Office...........................    32
        Prepared statement of....................................    70
    Mark R. Paoletta, Senior Fellow, Center for Renewing America.    32
        Prepared statement of....................................    35
        Letters submitted for the record.........................    43
    Hon. Ashley Hinson submitted a letter for the record.........   118
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................   131
    Questions submitted for the record...........................   138
    Answers submitted for the record.............................   142

 
                       PROTECTING OUR DEMOCRACY:
                         REASSERTING CONGRESS'
                           POWER OF THE PURSE

                              ----------                              


                        THURSDAY, APRIL 29, 2021

                           House of Representatives
                                    Committee on the Budget
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 1 p.m., via Zoom, 
Hon. John A. Yarmuth [Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Boyle, Price, Schakowsky, 
Kildee, Chu, Plaskett, Wexton, Scott, Jackson Lee, Sires; 
Smith, McClintock, Grothman, Smucker, Burgess, Carter, Cline, 
Feenstra, Good, and Hinson.
    Chairman Yarmuth. The hearing will come to order. We are 
holding this proceeding virtually in compliance with the 
regulations for committee proceedings pursuant to House 
Resolution 965 carried over to the 117th Congress via House 
Resolution 8. I would like to remind Members that we have 
established an email inbox for submitting documents before and 
during committee proceedings and we have distributed that email 
address to your staff.
    Consistent with regulations, the Chair or staff designated 
by the Chair may mute participants' microphones when they are 
not under recognition for the purpose of eliminating 
inadvertent background noise. Members are responsible for 
unmuting themselves when they seek recognition. We are not 
permitted to unmute Members unless they explicitly request 
assistance. If I notice that you have not unmuted yourself, I 
will ask you if you would like staff to unmute you. If you 
indicate approval by nodding, staff will unmute your 
microphone. They will not unmute your microphone under any 
other conditions.
    Members must have their cameras on and be visible on screen 
in order to be recognized. Members may not participate in more 
than one committee proceeding simultaneously. I do not know if 
we have any Members in the hearing room. But if we do, in light 
of the attending physician's new guidance and his announcement 
on January 4th, any Members present in the hearing room must 
wear a mask at all times and are required to keep their masks 
on when seeking recognition and speaking.
    For those Members not wanting to wear a mask, the House 
rules provide a way to participate remotely from your office 
without being physically present in the hearing room.
    And now I will say what I should have said at the 
beginning. Good afternoon and welcome to the Budget Committee's 
hearing on Protecting our Democracy: Reasserting Congress' 
Power of the Purse. I want to introduce our witnesses for 
today. This afternoon, we will be hearing from Dr. Molly 
Reynolds, Senior Fellow in Governance Studies at the Brookings 
Institution, Liz Hempowicz, Director of Public Policy at the 
Project on Government Oversight, Edda Emmanuelli Perez, Deputy 
General Counsel at the U.S. Government Accountability Office, 
and Mark R. Paoletta, Senior Fellow at the Center for Renewing 
America.
    I will now yield myself five minutes for an opening 
statement.
    Exactly one year ago yesterday, I introduced the 
congressional Power of the Purse Act. I said it was an 
important step in restoring Congress' constitutional spending 
authority and reinforcing the foundations of our democracy, a 
responsibility that should be embraced by both sides of the 
aisle. Today we are in a new Congress, with a new 
Administration that has taken steps to return to previous 
longstanding norms. We have a reinvigorated OMB led by an 
Acting Director with firsthand experience fighting to protect 
Congress' spending authority. And we are using this Committee's 
first full hearing to again examine the importance of 
safeguarding Congress' constitutional authority and the need 
for the congressional Power of the Purse Act. I believe in this 
good government reform legislation, and I am fully committed to 
pursuing its reforms regardless of who is in the White House.
    Our founders knew that money, and who controls it, is 
fundamental to a democratic government. They also knew that, 
with elections every two years, Congress would be the branch 
most accountable to the public. So, they gave us the power of 
the purse as a critical check on the President.
    Congress has exercised this power by enacting foundational 
laws, like the Antideficiency Act and the Impoundment Control 
Act, and updating them as challenges to its authority arose. To 
help protect and enforce its spending decisions, Congress 
established the non-partisan Government Accountability Office, 
which, as we all know, is charged with investigating and 
reporting on violations of budget and appropriations laws.
    However, Congress' ability to exercise its singular 
constitutional authority has become increasingly challenged by 
an executive branch that has sought to seize control of the 
nation's purse for itself. Presidents and agencies of both 
parties have pushed the boundaries of their delegated spending 
powers, exploiting secrecy, a lack of reporting requirements, 
and limitations on enforcement to push their own agenda and 
sidestep Congress. Decades of this purposeful infringement on 
Congress' power of the purse proves that Congress cannot rely 
on interbranch comity and nonbinding norms in the face of an 
emboldened executive branch.
    For our government to work, the American people need to 
know that when their representatives in Congress pass a funding 
bill and it is signed into law, the executive branch will 
follow the law to ensure their hard-earned tax dollars go where 
their representatives intended. For Congress to remain a co-
equal branch of government and live up to our constitutional 
charge, we must reassert Congress' control over spending and 
ensure we are the ones holding the purse strings. That is why I 
introduced the congressional Power of the Purse Act.
    My legislation increases transparency by requiring the 
executive branch to make apportionments, along with legal 
justifications and opinions, publicly available. This helps to 
prevent arbitrary and self-serving decisionmaking, promote 
legal compliance, and end the use of expansive legal 
interpretations to exert undue influence on spending decisions. 
By making apportionments public, Congress and the American 
people can see exactly how federal resources are being used.
    The bill also increases accountability by improving and 
expanding controls under the Antideficiency Act and the 
Impoundment Control Act. It strengthens and expedites GAO's 
ability to obtain information from agencies and requires the 
executive branch to report to Congress on all violations of the 
ADA and ICA identified by GAO, a requirement that is 
unbelievably absent from current law. My bill also authorizes 
administrative discipline for government employees responsible 
for violating the law, serving not only as an important 
deterrent, but also as a tool to empower government employees 
to push back on political pressure to break the law.
    Transparency, accountability, checks and balances--these 
tenets are at the core of our constitutional republic and a key 
component of our responsibility as Members of Congress.
    A commitment to good government cannot ebb and flow 
depending on who controls the levers of power. Our Committee 
has issued reports, held hearings, written to officials in both 
the Trump and Biden Administrations, and introduced legislation 
as part of our work to safeguard Congress' spending authority.
    We continue this important work with our hearing today. 
Today presents another opportunity to examine our current 
framework of fiscal laws, its potential shortfalls, and why 
Congress must take legislative action to safeguard its 
constitutional authority, including passing the congressional 
Power of the Purse Act.
    We have assembled an expert panel of witnesses to help us, 
and I look forward to this important discussion.
    And before I recognize the Ranking Member, I ask unanimous 
consent to enter into the record a letter the Power of the 
Purse Coalition sent to me and to the Ranking Member applauding 
the Committee's leadership on this ``bipartisan, bicameral 
issue that impacts accountability and integrity within our 
governmental system'' and enthusiastically supporting reforms 
in the congressional Power of the Purse Act and its advancement 
in the 117th Congress.
    The Power of the Purse Coalition represents organizations 
across the ideological spectrum, and this letter of support is 
signed by Demand Progress, FreedomWorks, the National 
Taxpayers' Union, Project On Government Oversight, Protect 
Democracy, R Street Institute, and Taxpayers for Common Sense. 
I thank these organizations for their strong support and 
without objection, the submission will be in the record. So 
ordered.
    [The prepared statement of Chairman Yarmuth and letter 
submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Yarmuth. With that, I would like to yield to the 
Ranking Member Mr. Smith for five minutes for his opening 
statement.
    Mr. Smith. Mr. Chairman, thank you for convening this 
hearing. It could not be more relevant given the current State 
of Congress' performance on budgeting and spending. It also 
could not be more necessary given the actions of President 
Biden when it comes to the crisis on our southern border. And 
specifically, his decision to abandon construction of the 
border wall after Congress appropriated funding for it. The 
President's decision to withhold funding on the border wall, 
along with other actions his Administration has taken, have 
only fueled a national security and humanitarian crisis at the 
southern border.
    As the Chairman is aware, Republicans on this Committee 
have called for a hearing on what we view as an unlawful 
withholding of funding, especially given this Committee's 
stated oversight responsibilities. I appreciate that the 
Chairman has chosen this Committee's first hearing to focus on 
issues that are related to President Biden's decision to freeze 
funding for the border wall. This is an opportunity to exercise 
much needed oversight.
    Given the Chairman's previous concerns with the actions of 
President Trump on spending appropriated funds, I look forward 
to his comments on President Biden's decision to withhold 
funding, since I would assume there would be a similar concern 
no matter who sits in the oval office. I also look forward to 
hearing from our GAO witness about what that agency is doing as 
it relates to President Biden's withholding of funding.
    Members from both the House and Senate have called on GAO 
to investigate this matter. Frankly, it is very concerning that 
such a request was needed given GAO's very public interest in 
this issue area. One has to wonder why GAO was not on the case 
the day after President Biden abandoned construction of the 
wall.
    I respect the fact that the Chairman will want to discuss 
the broader issue with Congress. Congress' Article I 
authorities and the power of the purse. I welcome that 
discussion. Part of it should center around Congress, their own 
shortcomings in this matter, and its inability to follow or 
enforce its own rules, roles, and responsibilities. When it 
comes to budgeting and spending taxpayer dollars, just look at 
the historic record. Since 1977, there have been 20 government 
shutdowns and Congress has had to enact 192 continued 
resolutions, including four this Fiscal Year because deadlines 
for completing regular appropriation bills have not been met.
    Congress has failed to follow regular order, that is 
passage of a budget resolution followed by 12 separate 
appropriation bills before the beginning of the fiscal year, 
every year since Fiscal Year 1995.
    According to the Congressional Budget Office, 1,046 
authorizations from 272 laws expired prior to the start of 
Fiscal Year 2020. And appropriations for the Fiscal Year 2020 
included $332 billion attributable to expired authorizations. 
As of right now, work on funding for the upcoming fiscal year, 
Fiscal Year 2022, is not currently on track to look much 
different. Given delays in the budget process on the part of 
Congress and the President, there is the growing likelihood 
Congress starts the Fiscal Year with another CR or massive 
omnibus spending bill.
    In closing, we are holding this hearing on the 100th day 
the Biden Presidency. A hundred days in which not only did the 
President withhold appropriated funds while fueling a crisis at 
our southern border, he also fired thousands of Americans by 
the stroke of a pen and has proposed or pursued policies that 
will destroy jobs, drive down wages, and drive up the cost of 
living for America's working class. I hope this Committee 
would, at the very least, continue to seek answers from the 
Administration on how it plans to budget for all the policies 
its proposed.
    Thank you, Mr. Chairman, and I look forward to the 
testimony from today's witnesses. Mr. Chairman, you are muted.
    [The prepared statement of Jason Smith follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you. Thanks to the Ranking Member. 
I apologize for that. But thank you for your opening statement. 
In the interest of time, I ask that any other Members who wish 
to make a statement, submit their written statements for the 
record to the email inbox we established for receiving 
documents before and after--before and during the committee 
proceedings. We distributed that email address to your staff. I 
will hold the record open until the end of the day to 
accommodate those Members who may not yet have prepared written 
statements.
    I would like to thank our witnesses for being here this 
afternoon. The Committee has received your written statements 
and they will be part of the formal hearing record. You will 
each have five minutes to give your oral remarks. As a 
reminder, please unmute your microphone before speaking. Dr. 
Reynolds, please unmute your microphone and begin when you are 
ready.

  STATEMENTS OF MOLLY E. REYNOLDS, SENIOR FELLOW, GOVERNANCE 
STUDIES, THE BROOKINGS INSTITUTION; LIZ HEMPOWICZ, DIRECTOR OF 
PUBLIC POLICY, PROJECT ON GOVERNMENT OVERSIGHT; EDDA EMMANUELLI 
 PEREZ, DEPUTY GENERAL COUNSEL, U.S. GOVERNMENT ACCOUNTABILITY 
 OFFICE; MARK R. PAOLETTA, SENIOR FELLOW, CENTER FOR RENEWING 
                            AMERICA

                 STATEMENT OF MOLLY E. REYNOLDS

    Dr. Reynolds. Thank you, Chairman Yarmuth, Ranking Member 
Smith, and Members of the Committee. My name is Molly Reynolds, 
and I am a Senior Fellow in the Governance Studies Program at 
the Brookings Institution. I appreciate the opportunity to 
testify today on how Congress can better fulfill its 
constitutional obligation to provide for and effectively 
oversee the executive branch.
    In this context, I want to make four points. First, because 
the Constitution separates the legislative and executive 
functions, divergence between Congress' intent and policy 
outcomes is inevitable. Congress must design and periodically 
redesign mechanisms to monitor executive branch implementation 
of policy. It is not possible, nor is it wise for Congress to 
try to write every policy detail into law. The executive branch 
has types of expertise that make it better equipped to make 
certain detailed decisions. As the policy problems facing the 
nation have become more complex, Congress has increasingly 
found itself incapable of writing statutes that contain all 
these specific choices.
    In addition, Congress often prefers to leave detailed 
decisions to the executive branch because they are politically 
challenging. Together, these circumstances mean that Congress 
must design ways to monitor this inevitable potential for 
slippage. Divergence can and does occur regardless of whether 
the branches are controlled by the same political party. Even 
in an era of high partisan polarization, the need for 
monitoring and oversight tools is structural and fundamental to 
the constitutional system.
    Second, because divergence between Congress' intent and the 
executive branch's implementation is inevitable, so too is the 
need for Congress to periodically revise its procedures as it 
has done in the past. The Antideficiency Act's apportionment 
requirement was enacted to prevent the executive branch from 
quickly spending down its allocations and demanding more funds. 
The Congressional Budget and Impoundment Control Act contain 
several provisions expressly responding to aggressive 
assertions of power by the executive branch. Several components 
of the Power of the Purse Act are natural successors to these 
earlier budgetary provisions. Importantly, the Presidential 
powers targeted by these provisions are statutory. If Congress 
wrote the statute originally, it too should update it 
periodically in response to changing conditions.
    The President is not the only actor whose changing behavior 
can require a response from Congress. Prior to the Supreme 
Court's decision in INS v. Chadha, legislative veto provisions 
were an important tool in Congress' arsenal. Because 
legislative veto provisions often included procedures that 
expedited consideration of the review legislation, they 
demonstrate a powerful choice by some individual Members of 
Congress: cede some of their individual power in order to give 
the institution a stronger voice. The Supreme Court's decision 
in Chadha disrupted that bargain and Congress would be well-
served to adapt its procedures in response as Title III of the 
Power of the Purse Act does for the National Emergencies Act.
    Third, the evolution of Congress' own approach to 
processing spending bills has also increased the need for new 
tools to enhance oversight capacity. Relying on continuing 
resolutions and large omnibus bills breeds brinkmanship because 
the cost to Congress and its constituents of letting the 
government shut down is so high, legislators cannot credibly 
threaten to withhold funding from a specific priority or 
activity because the president has chosen to stray from 
congressional intent. When there is a partial shutdown of 
federal operations, the executive branch has substantial 
discretion over exactly which activities cease and which ones 
can continue. This discretion further undermines Congress' 
power in shutdown confrontations.
    A common reaction to this brinkmanship is to call for a 
return to so-called regular order. But little in Congress' 
recent experience suggests that is likely. Given this, Congress 
must turn to new tools like those in the Power of the Purse Act 
to ensure it gets the information it needs.
    Finally, changes in the nature of congressional oversight 
also mean that reforms to support Congress' work are needed. 
Historically, Congress' efforts to oversee the executive branch 
generally followed a model of accommodation. This 
accommodations process has eroded and Congress has had more 
difficulty enforcing subpoenas against the executive branch.
    Given this, Congress would be well served to strengthen its 
hand as it seeks information from the executive branch. Several 
provisions in the Power of the Purse Act aim to do this. The 
slow speed at which the federal courts move, however, 
constrains Congress' ability to use them effectively as the 
mechanism to ensure executive compliance, even in instances 
where the courts are likely to side with Congress.
    The legislative branch must work on its own behalf, just as 
previous Congresses have done as part of the continual push and 
pull between the branches.
    While other periods of heavy congressional delegations to 
the executive, like the 1930's and 1960's, were followed by 
enhancements by Congress of its own capacity to oversee those 
actions in the 1940's and 1970's, the expansion of executive 
power that began after September 11th has not been met with a 
similar assertion of congressional authority. The Power of the 
Purse Act represents an important part of that necessary 
effort.
    Thank you, again, for the opportunity to testify today, and 
I look forward to your questions.
    [The prepared statement of Molly E. Reynolds follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you very much, Dr. Reynolds. I now 
recognize Ms. Hempowicz for five minutes. Unmute and you have 
the floor.

                   STATEMENT OF LIZ HEMPOWICZ

    Ms. Hempowicz. Thank you. Chairman Yarmuth, Ranking Member 
Smith, and Members of the Committee, thank you for inviting me 
to testify today about Congress' power of the purse and efforts 
to reclaim and reassert that power.
    One reading of the Constitution's focus and prioritization 
on the legislative branch is that the founders intended it to 
be the most powerful actor within the three branches of 
government. However, today we have an executive branch that has 
encroached on significant authorities that the Constitution 
explicitly vested in the legislative branch, including the 
power of the purse. Because of this encroachment, the executive 
branch now wields a disproportionate amount of power in our 
three-branch structure.
    A rebalancing of that power is long overdue, particularly 
in light of growing public concern about government corruption. 
I am here today to ask you to improve your ability to oversee 
how the executive branch spends the public money that Congress 
appropriates. More specifically, I urge you to require more 
transparency from the White House's Office of Management and 
Budget about how it apportions or schedules how executive 
agencies spend appropriated funds.
    Now that you know what I am here to ask you to do, I will 
explain why. Congress has mandated that the executive branch 
set a schedule to disburse money that has been appropriated to 
agencies as an attempt to encourage responsible financial 
management. This is meant to prevent both overspending and 
programmatic disruptions. This process of scheduling out 
funding is called apportionment. I want to emphasize that this 
is not an inherent executive branch power. It is one that 
Congress created and it is well within congressional authority 
to dictate limits to how the executive exercises this function.
    Today, the Office of Management and Budget exercises 
apportionment authority on behalf of the President. While they 
may delay the disbursal of funds for legitimate programmatic or 
technical reasons, the executive is not authorized to delay or 
withhold funds to achieve policy objectives. This is quite 
simply because allowing OMB or the President to withhold or 
delay funds to achieve policy objectives would be tantamount to 
handing the power of the purse over to the executive branch 
entirely.
    Because there are clear constitutional limits to the 
apportionment process, transparency is critical to ensure that 
the executive is not abusing it. Which is why the public may be 
surprised to hear that these apportionment directives are 
issued entirely in secret. OMB issues apportionment directives 
both by fiscal quarter and by project or a combination of those 
two. So, though they are subject to public records requests 
through the Freedom of Information Act, it is difficult to 
ensure consistent transparency without proactive release of 
this information.
    That means that lawmakers don't have regular access to the 
text of apportionment directives or the footnotes, which 
contain more specific directions from the White House related 
to the funding and can be used as a way to compel or 
incentivize agencies to take certain actions. Not only does 
this make it harder for Congress to conduct oversight, but the 
lack of transparency makes it difficult for the public to have 
faith that taxpayer resources are being handled with integrity 
and in a manner consistent with the intent of Congress.
    The executive branch has a long history of expansively 
interpreting the authorities granted to it by Congress, well 
beyond what the statutory text would dictate. Those legal 
interpretations often issued by the Office of Legal Counsel at 
the Department of Justice are also issued in secret and they 
have serious ramifications on the balance of power when it 
comes to matters related to the power of the purse.
    The President's obligation to take care that the laws and 
spending decisions enacted by Congress are executed as Congress 
intended demand additional transparency in both areas. Taking 
it back to our founding, Congress holds the power of the purse 
because the founders envisioned it would be the branch of 
government most accountable to the people, and, therefore, best 
able to wield that power in a way that is responsive to the 
needs and interests of the public.
    It also reflects that the founders were very concerned that 
vesting too much authority, particularly to spend public money, 
in an executive branch led by a single person. Remember, the 
Constitution only gives the executive a handful of independent 
authorities. None of which require secrecy around how the 
executive branch apportions funds.
    The potential for the executive branch to manipulate 
spending in secret exposes our government to corruption and 
undermines the delicate balance of power between our branches 
of government. Additional transparency around these budgetary 
decisions will only improve Congress' capacity to oversee 
executive branch spending, serving as a check against 
malfeasance and corruption.
    For example, Ranking Member Smith, if the congressional 
Power of the Purse Act was law, you and Congressman Katko would 
already have many of the answers to the questions you have 
recently asked the Biden Administration about how appropriated 
funds are being used at the southern border. That is because 
you would have--you would likely have timely access to the 
documents dictating that spending.
    I urge this Committee to pass the congressional Power of 
the Purse Act, either on its own or as part of the sweeping 
anticorruption package introduced last Congress aptly titled 
the Protecting Our Democracy Act. Thank you, again, for holding 
this important hearing, and I look forward to answering your 
questions.
    [The prepared statement of Liz Hempowicz follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you very much for your testimony. I 
now recognize Ms. Emmanuelli Perez for five minutes. Please 
unmute and we are interested in your testimony.

               STATEMENT OF EDDA EMMANUELLI PEREZ

    Ms. Emmanuelli Perez. Chairman Yarmuth, Ranking Member 
Smith, and Members of the Committee, thank you for the 
opportunity to discuss Congress' constitutional power of the 
purse, the Government Accountability Office's role in serving 
this power, and several legislative proposals to strengthen 
this power.
    Since our creation a century ago, GAO has performed audits 
and investigations and issued legal decisions to support 
Congress in its oversight of executive spending. Congress has 
also vested GAO with additional statutory responsibilities
    [inaudible]----
    Chairman Yarmuth. If you can suspend for a minute, please? 
Your sound is breaking up.
    [Audio malfunction]
    Chairman Yarmuth. Yes. Sam, why don't we see if we can get 
her sound corrected, and in the meantime, we will hear from Mr. 
Paoletta. So, Mr. Paoletta, you are recognized for five 
minutes. Please unmute and give us your testimony.

                 STATEMENT OF MARK R. PAOLETTA

    Mr. Paoletta. Chairman Yarmuth, Ranking Member Smith, and 
Members of the Committee, thank you for the invitation to 
testify today on legislation to amend the Impoundment Control 
Act. This bill has been described as an effort to strengthen 
Congress' power of the purse and to prevent impoundments.
    It is ironic that as this bill is being considered, 
President Biden is holding, that is impounding, funds for the 
construction of a wall along the southern border, including 
$1.4 billion specifically appropriated for the border wall 
construction. Based on GAO's opinion on funding for Ukraine, 
President Biden's hold is clearly illegal and a violation of 
the Impoundment Control Act. But the Democrats on this 
Committee have been silent on this direct assault on Congress' 
power of the purse.
    President Biden's hold is 100 days and counting. It is an 
ongoing hold, which is twice as long as the Trump OMB 50-day 
hold on Ukraine funds. President Biden's decision to impound 
these border wall funds, combined with his reversal of other 
Trump Administration policies on immigration and border 
security, has led to catastrophic consequences and a true 
crisis of human suffering at the border. These policies have 
tragically facilitated increased human trafficking and other 
horrible situations. And this was all avoidable given the good 
work done by President Trump and his Administration to address 
these issues at the border.
    Even after the Trump OMB released the funds for Ukraine 
after 50 days, Chairman Yarmuth and Chairwoman Lowey stated 
that OMB's unilaterally delaying the funding was an abuse--this 
is a quote--``an abuse of authority provided to the President 
to apportion appropriations,'' and sent sweeping document 
requests to OMB.
    Why hasn't the Chairman or any Democrat on this Committee 
issued any statements or sent document requests to DHS or OMB 
asking about this ongoing hold? If you truly cared about 
preventing impoundments or asserting Congress' power of the 
purse, your actions would not be governed by who is president 
or whether you agree with the policy.
    GAO rejected the Trump OMB's argument that the President 
could hold funds to figure out how best to spend the funds 
consistent with the appropriations and the President's agenda. 
In contrast to that Trump hold, President Biden's hold is 
designed to specifically thwart a lawfully enacted 
congressional appropriations to build the border wall. 
President Biden pledged during the campaign not to build 
another foot of the wall, calling it a waste of money. His 
Fiscal Year 2022 discretionary request proposes to rescind the 
very border wall money that he is holding. Thus, the Biden 
Administration is apparently now intentionally under-executing 
congressionally appropriated funding in order to later rescind 
it. That is a flat-out defiance of congressional intent and is 
a textbook impoundment.
    GAO's Ukraine opinion stated, the ICA does not permit 
deferrals for policy reasons. Faithful execution of the laws 
does not permit the President to substitute his own policy 
priorities for those that Congress has enacted.
    This bill will only make a bad law worse. The ICA has 
undermined responsible stewardship of government spending. Why? 
Because the ICA disincentivizes any effort to run programs more 
effectively to achieve savings by mandating onerous procedures 
to make it all but impossible to save unnecessary funds.
    It used to be well-established policy to faithfully 
implement programs with the least amount of money necessary. 
The ICA now makes those efforts potentially illegal. The ICA 
overthrew 200 years of how the executive and legislative 
branches worked together. Congress should use its powers under 
Article I of the Constitution to focus on passing detailed 
authorizing laws, reauthorizing the hundreds of laws that have 
expired, and enacting separate appropriations bills on time and 
not in a monstrous omnibus passed months late.
    Well-crafted laws authorizing federal programs are 
critically important to ensuring that the executive can 
effectively fulfill congressional intent. The appropriations 
should be a means to implementing that federal program, not an 
end in itself.
    The bill's provisions are all meant to increase the 
micromanaging of the daily operations of the executive branch. 
And they will further undermine effective stewardship of 
government spending. For example, the provision that requires 
funds to be made available for obligation within 90 days of the 
end of the period of availability is wrongheaded. By shortening 
the timeline by when an appropriation must be apportioned, and 
particularly given Congress' inability to pass things on time, 
this bill will only further undermine Presidential 
decisionmaking and exacerbate wasteful spending.
    A provision regarding publicly listing the positions that 
have apportioning authority will ultimately result in the 
doxing of federal civil servants. A provision regarding 
applying administrative penalties to executive branch officials 
found to have impounded funds is bad policy because there are 
so many gray areas as to what constitutes a violation of the 
ICA. It is worth noting--this is interesting--that Members of 
Congress and their staff routinely call agency staff to demand 
that they hold apportioned funds, often without any purpose 
related to the implementation of that program.
    During the Trump Administration, I provided GAO with 300 
examples from the State Department in a 3-year period where 
Members of Congress demanded holds on funding. They ranged from 
somewhere from 10 days to 321 days. Are these impoundments for 
which an agency employee would be held responsible?
    The provisions giving GAO additional powers to make demands 
on the executive branch are unwise and probably 
unconstitutional. For example, the law empowered the GAO to 
demand documents from the President of the United States, and 
if he does not comply in 20 days, GAO is empowered to sue him 
in federal court to make him comply. That is astonishing. 
Congress can't even do that, and GAO works for Congress.
    There are other concerns with this bill, but in the 
interest of time, I will leave it at that. My full statement 
with two attachments, have been submitted for the record, and I 
am happy to answer any questions. Thank you.
    [The prepared statement of Mark R. Paoletta and letters 
submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Yarmuth. Thank you for your testimony. Since my 
name was invoked and by inclusion of the Members of the 
Committee, I do want to respond to the issue of what we have 
done with regard to the border wall funding. Within days of the 
announcement of the Administration that they were not going to 
fund, we were in contact with the OMB. We have been in contact 
with them and they have been perfectly willing to engage with 
us on the issue. We are certainly seeking answers from them. 
But when the Republican senators, and I guess, Democratic--I 
mean, Republican House Members as well, requested that GAO 
investigate this situation and they are currently 
investigating, we will respect that process as we respected it 
in prior occasions.
    So, I just wanted to get that on the record. And, 
hopefully, we can get Ms. Emmanuelli Perez back on and get her 
sound corrected. Are you there?
    Ms. Emmanuelli Perez. Yes, sir. Can you hear me?
    Chairman Yarmuth. We can hear you. You are still a little 
garbled.
    Ms. Emmanuelli Perez. Oh.
    Chairman Yarmuth. Let us try it again, though.

               STATEMENT OF EDDA EMMANUELLI PEREZ

    Ms. Emmanuelli Perez. OK, thank you very much. I apologize 
for these connection problems here.
    Chairman Yarmuth. All right.
    Ms. Emmanuelli Perez. So, Mr. Chairman, Ranking Member 
Smith, Members of the Committee----
    Chairman Yarmuth. You have five minutes.
    Ms. Emmanuelli Perez.----thank you for the opportunity to 
discuss Congress' constitutional power of the purse. The 
Government Accountability Office's role in serving this power, 
and several legislative proposals to strengthen this power.
    Since our creation a century ago, GAO has performed audits 
and investigations and issued legal decisions to support 
Congress in its oversight of executive spending. GAO also has 
been vested with additional statutory responsibilities to 
oversee the use of public money. For example, under the 
Impoundment Control Act, we must review any special messages 
the President submits pursuant to the Act, and report to 
Congress when a special message is either improperly classified 
or not transmitted at all. We are regularly providing technical 
assistance to Congress and executive branch agencies.
    We published the Red Book, a multi-volume appropriations 
law treatise that is relied upon across the government and we 
teach a principles of appropriations law course opinion that 
should be prudently considered. And the Supreme Court has cited 
GAO's Red Book in support of its appropriations law matters.
    GAO takes seriously its role in protecting Congress' power 
of the purse. Today, I would like to discuss several 
suggestions we have for legislative changes that will 
strengthen Congress' power of the purse and provide increased 
transparency.
    First, we would like to recommend that Congress amend the 
Impoundment Control Act to expressly preclude the withholding 
of budget authority through its expiration to ensure the 
prudent obligation of appropriated budget authority.
    The Impoundment Control Act provides a president with the 
legal authority to temporarily withholding funds from 
obligation with specific notice to Congress and meeting 
specific conditions. It is critical to maintain the careful 
balance of the Impoundment Control Act proposals to cancel 
budget authority. When Congress does not act to rescind funds, 
it appropriates its funds for obligation.
    In 2018, we issued a decision requested by Mr. Yarmuth and 
Mr. Womack where we examined whether the President had the 
authority under the Impoundment Control Act to withhold budget 
authority through its date of expiration. We determined that 
the President does not have this authority. And Congress can 
clarify the extent of that authority by explicitly prohibiting 
the withholding of funds through their date of expiration.
    Second, we recommend that the Department of Justice report 
to Congress on whether it will prosecute reported 
Antideficiency Act violations. In addition to appropriate 
administrative discipline it should contemplate criminal 
penalties for knowing and willful violations. And that threat 
is an essential deterrent. To our knowledge, there has never 
been a criminal prosecution of an Antideficiency Act violation. 
And a reporting requirement would ensure that consideration of 
that liability for all by the enforcement of the Act.
    Third, we recommend that Congress clarify the reach of the 
Antideficiency Act to correct the underreporting of 
Antideficiency Act violations. Although the Office of 
Management and Budget just yesterday amended its Circular No. 
A-11 reinstating its instruction that the agencies report 
Antideficiency Act violations found by GAO, we recommend that 
Congress amend the Antideficiency Act to clearly require 
agencies to report. When OMB had changed its longstanding 
guidance, we reported six Antideficiency Act violations to 
Congress that agencies failed to report. This will ensure that 
any future changes to OMB instructions do not interfere with 
the transparency, increased visibility of the agency 
operations, and congressional oversight. We also recommend that 
Congress encourage the agency in spending appropriate funds. 
And Congress could require that agencies report on the expired 
and canceled balances in their appropriation accounts. This 
information would increase the visibility to agency operations, 
strengthen congressional oversight, and help Congress and GAO 
identify potential violations of law.
    Finally, we recommend that Congress require agencies to 
respond to GAO's request for information within a certain 
period of time. Delays in receiving information impede our 
ability to issue decisions in a timely manner and impacts 
Congress' ability to conduct its oversight functions.
    Each of these legislative proposals will strengthen 
Congress' power of the purse, which is a key check on the power 
of the other branches. James Madison called it the power that 
allows Congress to reduce all the overgrown prerogatives of the 
other branches.
    Chairman Yarmuth, Ranking Member Smith, and Members of the 
Committee, this completes my prepared statement. I would be 
pleased to answer any questions you may have. Thank you.
    [The prepared statement of Edda Emmanuelli Perez follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you very much for your testimony. 
We will now begin our question and answer session. As a 
reminder, Members can submit any questions to be answered later 
in writing. Those questions and responses will be made part of 
the formal hearing record. Any Members who wish to submit 
questions for the record may do so by sending them to the clerk 
electronically within seven days.
    As is my custom, I am going to reserve my time, questioning 
time, to the end of the session. I believe the Ranking Member 
is going to go in his normal order. But first I will recognize 
the gentleman from Pennsylvania, Mr. Boyle, for five minutes.
    Mr. Boyle. Thank you, Mr. Chairman. I appreciate that and 
you holding this hearing on such an important piece of 
legislation. It goes back to what happened almost a quarter of 
a millennium ago, right here from the city that I am speaking 
to you from, Philadelphia, when our nation's founders gave 
Congress the power of the purse. Unfortunately, in so many ways 
and not just in the power of the purse, we have seen, in my 
view, a migration of power from the legislative branch to the 
executive branch really over the last 20, 25 years. And, 
frankly, that has happened in Administrations of both parties.
    So, I think it is crucial that Congress again reassert its 
role in holding the power of the purse. Our founders thought we 
would jealously--we as members of the legislative branch, would 
jealously guard our powers. Unfortunately, as intense 
partisanship has taken hold, and we have even heard some of 
that already this hearing, as that intense partisanship has 
taken hold, it has allowed the executive branch to creep into 
our territory. So, I think this legislation is important. I am 
supportive of it.
    Let me turn to Mrs. Hempowicz, and I apologize if I am not 
getting your name pronounced exactly correctly. But let me ask 
you specifically on the question of transparency. If Congress 
makes a spending decision that is transparent, I am very 
concerned about secrecy and apportionments when it is not 
Congress. As I mentioned, when we use our appropriations power, 
you do have transparency. What happens right now when we do see 
an executive apportionment? Is Congress aware of it? Is the 
public? What rules right now govern the transparency of that 
non-legislative process?
    Ms. Hempowicz. Thank you so much for that question, 
Representative. And I share your frustration with the ceding of 
power, congressional power, to the executive branch. Right now, 
when apportionment directives are issued by OMB, there is no 
transparency requirement. Congress may see them. The public may 
see them if, you know, an interested party--if Congress asks 
for them and goes through a lengthy accommodations process and 
you may receive them. If members of the public submit Freedom 
of Information Act requests, which also take a great deal of 
time to reach fruition, we might also receive--we might have 
transparency there. But it is not guaranteed. And you are right 
in the way that Congress passes laws, those are public. That is 
how lawmaking is supposed to be.
    I think the excess secrecy here by the executive branch not 
only is making congressional oversight harder, but I think it's 
part of what is fueling this growing public concern about 
corruption in government. And I think the way to answer that, 
you know, I know it is a cliche, but sunlight is the best 
disinfectant. And so, I think this is certainly an area where 
more transparency would not only help Congress, but it would 
help the public.
    Mr. Boyle. Thank you for that. The natural followup then is 
what suggestions or ideas would you have on how we can improve 
transparency in those sort of executive branch apportionment 
decisions.
    Ms. Hempowicz. Yes, well, I think, you know, the first 
thing I would do is I would recommend passing the congressional 
Power of the Purse Act. But then going even further than that 
legislation, I think there needs to be additional transparency 
around opinions issued by the Office of Legal Counsel at 
Department of Justice. While the congressional Power of the 
Purse Act would require transparency of opinions, OLC issues 
around interpreting the executive's budget authority, that is 
the only section of those--that is the only--sorry--subset of 
those opinions that would be required to be transparent under 
this law. And I think there is certainly a lot of room and 
particularly when we are talking about congressional 
authorities. So, enforcing congressional subpoenas, things like 
that, you know, the OLC has wielded an incredible amount of 
power and almost always in favor of more secrecy for the 
executive.
    Mr. Boyle. Great. Well, thank you very much, Mr. Chairman. 
With that, I yield back. There you go.
    Chairman Yarmuth. All right. I am having trouble unmuting. 
Thank you, Mr. Boyle. And I now recognize the Ranking Member 
Mr. Smith of Missouri for 10 minutes.
    Mr. Smith. Thank you, Mr. Chairman. First, I just want to 
raise my frustration with these virtual hearings. It really is 
a disservice to all the Members of the Budget Committee 
whenever one of the key witnesses that you all have from GAO, 
we can't hardly understand or hear much of what she is saying. 
I am going to start my questions with her. I hope we can answer 
them. But I do know that we have retrofitted the budget room so 
that we could actually do a hybrid hearing. And I would 
strongly suggest that we get back to regular order, Mr. 
Chairman.
    Chairman Yarmuth. We want to as soon as possible. But I 
think we have connected her with a phone line now so she should 
be clearly audible.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Yarmuth. Thank you.
    Mr. Smith. Ms. Perez, I will start with you. As you are 
aware, on March 23, 2021, 71 Republican Members of Congress, 
including myself, joined 40 Republican senators in requesting a 
GAO legal opinion on suspension of border wall construction 
contracts and withholding appropriated funds. I ask unanimous 
consent, Mr. Chairman, to submit this letter into the record.
    Chairman Yarmuth. Without objection, so ordered.
    Mr. Smith. Thank you, Mr. Chairman. Ms. Perez, can you 
provide any status update on when GAO will issue this opinion?
    Ms. Emmanuelli Perez. Yes. Yes, sir. We do have right now 
pending a decision that we are working on. We have asked OMB 
and DHS to provide factual and legal views to us. And we are 
expecting their responses right now mid to late next week. We 
did actually begin looking at this issue when the President 
announced this in January. And, of course, also accepted the 
request signed by you and various other Members. But it is 
something we have been looking at and are asking OMB and DHS to 
provide us with information.
    Mr. Smith. OK. So, Ms. Perez, you are telling me that GAO 
started looking into this without any Member of Congress 
requesting it?
    Ms. Emmanuelli Perez. Yes, that is correct. As part of what 
we do under the Impoundment Control Act, if we become aware of 
a potential impoundment, we do start looking into it. Sometimes 
we learn through it from Congress. We have learned through it 
through the media. In this case, of course, the President did 
issue a proclamation. So, therefore, we did become aware of a 
possibility of an Impoundment Control Act issue and did start 
looking at that at that time.
    Mr. Smith. Thank you, Ms. Perez. I just want to reiterate, 
given that this is an ongoing hold, and it is currently 
happening resulting in a clear humanitarian crisis at our 
border, I believe that it is the responsibility of GAO to make 
this decision very quickly, as has I pointed out in prior 
letters when GAO addressed the Ukraine funding in the prior 
Administration. That was after all of this was done. And when 
Senator Van Hollen submitted the letter, it was in December. 
And on January 16th I believe it was, you all had a decision.
    So, I definitely want to encourage, because of the crisis 
on the southern border, that this decision gets out there 
easily because, I mean, I think it's pretty straightforward 
that this Administration is violating the law. And I just would 
highly encourage that just for what is going on and as a Member 
of Congress, that is the power of the purse.
    So, I would like to go to--you know, it has been 100 days 
since President Biden has suspended the border wall funding. 
Can you tell me what day it was that GAO started to look into 
this?
    Ms. Emmanuelli Perez. When we heard of the President's 
decision to pause the funding, you know, when we heard of the 
declaration that he did make, we immediately did start talking 
within GAO to start looking at what were the issues we needed 
to find. Who do we need to talk to. What type of information do 
we need to obtain. And then consequently, we also received the 
request from Members such as yourself. So, we will be making 
that decision.
    Mr. Smith. I look forward to that and I hope that you will 
notify us as soon as you have that decision.
    Ms. Emmanuelli Perez. We absolutely will. And we certainly 
share, you know, the urgency for having these decisions done as 
quickly as possible. We do look forward to hearing from OMB and 
DHS very soon. So, we hope that that will give us the 
information that we need to make that decision.
    Mr. Smith. Thank you. I will move on to Mr. Paoletta. It 
has been 100 days since President Biden suspended construction 
of the U.S. southern border wall and paused funding for border 
wall construction. These actions appear, in my opinion, to 
violate the Impoundment Control Act. This Committee was very 
active in its oversight of the executive branch last Congress, 
but the Democrats have seemingly been pretty silent on the 
biggest power of the purse abuse occurring right now in the 
first three hours of this current Administration. That is why 
my colleagues and I on this Committee have demanded a hearing 
on the Administration's constitutional abuses, the violation of 
U.S. law, and unjust pause on border wall construction.
    I am glad this hearing will provide an opportunity to 
discuss those issues and I ask unanimous consent to submit the 
letter written by Committee Republicans on this issue, dated 
March 29, 2021, into the record, Mr. Chairman?
    Chairman Yarmuth. Without objection, so ordered.
    [Letters submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. Thank you, Mr. Chairman. So, under the 
Impoundment Control Act, what are permissible grounds to hold 
or pause funds?
    Mr. Paoletta. Well, you can pause--thanks, Mr. Smith. You 
can pause funds if you can send up a deferral notice to the 
Congress. You can pause funding if you are sending up a 
recission package to the Congress. If you are in the day-to-day 
management of your funds--and it is interesting, I listened to 
this discussion as a person who has been part of the executive 
branch--if you are trying to implement the program and you need 
to pause the money to figure out how best to spend that money, 
within the confines of the appropriation, you can pause it.
    OMB has an apportionment authority too, right? As the 
testimony and oral testimony discussed. And it is day-to-day 
operations within OMB to apportion funds. So, if you have 2-
year funds, you might apportion it so that half those funds are 
unavailable for the first year, right? That is an 
apportionment, right? It is putting those funds off. That is 
just--we view that--or the executive branch views that as just 
day-to-day Administration of our implementing programs.
    Mr. Smith. So, I just want to get this right. So, funds 
cannot be withheld for a policy reason?
    Mr. Paoletta. Again, so, in terms of--my view is that so 
long as you are trying--so, if you are trying to implement the 
program consistent with the appropriations and they are 
multiple ways you can do that, right? So, it is consistent with 
your appropriation and trying to figure out if you can--I will 
take the perfect example is the WHO funds, right, on that 
issue. The appropriation was to fund international 
organizations. There are scores of them, OK? And Congress when 
they passed the appropriation, said just pass, you know, you 
have so much money to fund international organizations. One of 
them was the WHO. We paused those funds--or the President. It 
was an apportionment. Paused them to figure out where else 
could we spend that money within the appropriation, OK? That is 
a policy, right? It is a policy discussion about how best we 
acquire those funds within the scope of that appropriation.
    What is happening with President Biden's hold is that he is 
specifically thwarting the appropriation. He wants to defy the 
law in implementing that program.
    Mr. Smith. So, I am about to run out of time. And I want to 
try to get some stuff in the record as quickly as possible. So, 
if you could try to give me your opinion quickly, I would 
definitely appreciate it. But do you believe that the executive 
branch violated GAO standard of the Impoundment Control Act 
when it began withholding funds for the border wall?
    Mr. Paoletta. One hundred percent.
    Mr. Smith. Do you believe withholding funding for the 
border wall is an attempt by the Administration to circumvent 
congressional intent?
    Mr. Paoletta. I don't need to think that. President Biden 
has said that.
    Mr. Smith. OK. How is pausing funds for the border wall 
different than the temporary hold that occurred on funds for 
Ukraine, which as you know, GAO investigated?
    Mr. Paoletta. Sure. We paused those funds to allow policy 
process to go on and figure out how best to spend those funds. 
If you looked at that first hold, it was 10 days. It was to get 
a policy discussion because the President had expressed 
concerns about the spending of that money in the way it may 
have been spent. So, we paused it for 10 days, you know, and 
will shorter holds to allow a policy discussion to happen. It 
was to be done consistent with that appropriation and, in fact, 
it was obligated consistent with that appropriation.
    Mr. Smith. Perfect. OK, when it comes to Congress' power of 
the purse, it appears Congress itself is failing to do its job. 
As I mentioned in my opening statement, Congress has failed to 
follow regular order when it comes to budgeting and 
reauthorizing programs. Would you agree that a focus when 
discussing Article I authorities should include how Congress 
has, on its own, ceded its power of the purse by failing to 
authorize and appropriate in a regular, detailed, and timely 
manner?
    Mr. Paoletta. Yes, 100 percent.
    Mr. Smith. You know, Congress has consistently failed to 
meet its budget and appropriations responsibilities for Fiscal 
Year 2021, alone. Four continuing resolutions were enacted 
before enacting a huge omnibus appropriations act. And Congress 
has already missed its deadline to pass a Fiscal Year 2022 
budget resolution. And, therefore, it appears Fiscal Year 2022 
funding will likely be delayed and result in yet another 
omnibus appropriations act. Can you comment on how Congress' 
power of----
    Chairman Yarmuth. The gentleman's time has expired. I have 
actually been already generous with the Ranking Member.
    Mr. Smith. Well, I appreciate that. And I think that Mr. 
Chairman, we probably could be more efficient in asking 
questions if we could actually be in the room. So, I would 
reiterate on behalf of the House Republicans, that we are all 
ready. We are all ready to stand in a committee room with a 
mask or without a mask in an in-person hearing. And if you need 
all of us to sign to do that, we will do it.
    Chairman Yarmuth. All right. You made your position very 
clear. I appreciate that. I now yield five minutes to the 
gentleman from North Carolina, Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. I would like to quickly 
review four episodes from 2019 as the premise for my question. 
First of all, President Trump withheld duly appropriated funds 
from Ukraine. The GAO later determined that that was, in fact, 
an impoundment in his attempt to extort President Zelensky.
    Second, the President totally withheld funds, appropriated 
funds, from the West Bank in Gaza, foreign aid funds. He did 
the same with funds to the Northern Triangle countries of 
Central America. And we struggled to get those funds 
reinstated.
    Third, in early 2019, Leader McConnell acquiesced in 
Trump's demand that the border situation be declared a national 
emergency. Now, that let us reopen the government, but it also 
freed the President to spend unappropriated funds on his border 
wall.
    And fourth, in 2019, President Trump bypassed congressional 
review under the Arms Export Control Act for arms sales to 
Saudi Arabia by declaring an emergency.
    I would like, Mr. Chairman, to ensure that we can hold the 
record open for any Republican Members who would like to 
document the kind of objections they made at that time to any 
of these actions.
    Chairman Yarmuth. We can hold the record open for a week. 
We will do that for a week.
    Mr. Price. I think that would be useful to see what kind of 
objections were made to any of these by our Republican 
colleagues.
    And my questions are these, and maybe we start with Ms. 
Reynolds or Ms. Hempowicz. First of all, how do we do something 
about this unrestrained, uncontrolled declaration of 
emergencies? What kind of boundaries should be placed around a 
president's power to declare emergencies and then to spend 
money as he pleases? Whether he just spends the money or 
whether he diverts the money from appropriated sources. And 
then, second, how can appropriations be protected? You know, we 
struggled in the State and Foreign Operations Appropriations 
Subcommittee to figure out how in writing the next year's bill, 
how do we prevent another withholding of West Bank and Gaza 
funds? How do we prevent just a total shutoff of any funds to 
address the sources of migration in Central America? Are there 
additional--did we miss something? We had a very had time doing 
this.
    So, those two questions. The enhancement of some kind of 
controls over emergency declarations, willy nilly emergency 
declarations. And also, how do you protect appropriations?
    Dr. Reynolds. I am happy to offer a few comments first and 
then let Mrs. Hempowicz come in.
    So, Representative Price, on the national emergencies 
piece, I think one of the most powerful pieces of the Power of 
the Purse Act is the proposal that would shift the current 
mechanism for congressional review of national emergencies 
declarations from a joint resolution of disapproval to a joint 
resolution of approval.
    And as I mentioned in my statement, this situation arises 
in part because of a Supreme Court decision in 1983. But there 
are other examples where Congress has said that it believes 
that it should have the power to review, in an approval manner, 
decisions made by the executive branch. The recissions 
provisions of the Congressional Budget Act are one example. So, 
I would point to that in response to your first question.
    And in response to your second question, I think that some 
of the aspects of the Power of the Purse Act, especially around 
the transmission of information from the executive branch to 
the legislative branch, are the kinds of things that you are 
looking for to guarantee that in your case, the State and 
Foreign Operations Subcommittee of the Appropriations Committee 
is getting as much good information in a timely fashion that it 
can to make informed decisions in the next year's 
appropriations process.
    Ms. Hempowicz. And I agree with everything Dr. Reynolds 
said. And I just want to say--make one additional point on the 
national emergencies question. After President Trump declared 
the emergency at the southern border, there actually was 
incredibly bipartisan pushback in both the House and Senate. 
The President had to do, you know, had to use the first veto of 
his presidency to over--to veto the Congress telling him in a 
bipartisan way, we object to this emergency authority being 
used this way immediately after we, you know, had a long, 
drawn-out government shutdown over this very issue.
    And I just want to highlight that Members of Congress from 
both sides of the aisle objected there. Not because they 
objected to always to the policy that was being enacted by the 
President to build the border wall, but because they objected 
to how the President was making an end-run around Congress and 
really usurping the Congress' power of the purse in that 
instance. And so, I just wanted to highlight that under the 
National Emergencies Act, again, these are authorities that the 
Congress has delegated to the executive. And so, it doesn't 
make sense to me that it is so easy for the executive to work 
against Congress' expressed intent when it comes to executing 
those powers. And so, I think the voting--a vote by Congress as 
envisioned by part of this--by part of the congressional Power 
of the Purse Act where Congress has to approve an emergency for 
it to go longer than 30 days is exactly the way to address that 
problem.
    Chairman Yarmuth. Thank you for your response. The 
gentleman's time has expired. I now recognize the gentleman 
from California, Mr. McClintock, for five minutes.
    Mr. McClintock. Thank you, Mr. Chairman. I just wanted to 
offer the thought that we have got no standing to complain 
about executive actions whoever the president is until we have 
thoroughly cleaned up our own house. Our refusal, under both 
Republican and Democratic majorities, to follow our own rules 
and meet our own responsibilities, I think is at the heart of 
the fiscal mess that we are facing today.
    Let me mention three issues. Our failure to follow our own 
rules on unauthorized appropriations. Our failure to follow our 
statutory responsibilities under the 1974 Budget Act. And, 
finally, this return to earmarks that I am ashamed to say 
Republicans in the House are now joining. Thank God the Senate 
Republicans are not.
    First, let us talk about unauthorized appropriations. Ever 
since 1835, the rules of the House have required that 
appropriations may only be for purposes authorized by law. 
Under that rule--it is still on the books--any member can raise 
a point of order to block any unauthorized appropriation. This 
provision established a process that is absolutely essential if 
the House is to meet its constitutional responsibilities to 
superintend the nation's finances. First, a program has to be 
authorized by Congress in a process that begins in an 
authorizing committee. Only then does a separate action 
appropriate funding for it.
    This process imposes on Congress the responsibility 
periodically to review these programs. As a program's 
authorization expires, Congress has to revisit it to ask the 
obvious questions. Is it effective? Is it meeting its goals? Is 
it still needed? Is it worth the money we are paying for it? 
And depending upon the answer to these questions, Congress then 
renews the program, reforms it, or lets it die.
    The failure of this House and the Senate to agree on recent 
appropriations has often degenerated into these continuing 
resolutions and merely tweak last year's spending and then 
extend it in the future. And when we do pass appropriations 
bills, about one-third of the discretionary spending are for 
purposes not authorized by law. The law presumes authorizations 
that last years and sometimes decades ago. This is happening 
because the 1835 rule forbidding unauthorized appropriations is 
consistently waived, stripping Members of their right to 
object.
    The second issue is our failure to follow the budget law. 
You know this, the 1974 Budget Act gives the House a very 
powerful set of tools to control spending and balance the 
budget. For years on the House Budget Committee, I have heard 
it said that, well, the budget's merely an aspirational 
document, offering a vision for the direction the government 
should take. That is simply not true.
    The budget is an operational document, the single most 
important tool we have to control spending. The problem is we 
just don't use it. I have also heard incessantly that, well, it 
is a mandatory spending and that is beyond our control. Well, 
the budget resolution sets limits on the discretionary side. It 
is appropriated annually. That is about one-third of our 
budget. It also limits the mandatory spending that is set by 
statute. That is about two-thirds of the budget. But it also 
gives us powerful tools to enforce both limits. The problem is 
we just don't use it.
    On the discretionary side, as the deadline approaches and 
the threat of government shutdown looms, the appropriations 
bills are cast aside in favor of stopgap measures that continue 
the spending trajectory without reform. And on the mandatory 
side, enforceable limits are supposed to be placed in the 
reconciliation instructions that are sent to the House 
authorizing committees. Those committees are then required to 
make conforming statutory changes. If the committees fail to 
act, the Budget Committee can do so directly. But this powerful 
process is never used. Why? Because decisions on reforming 
mandatory spending, mainly entitlement programs, are those 
difficult decisions in our fiscal policy. It is easier not to 
make them and just blame the process.
    And finally, I want to address this return to earmarks, 
aided and abetted by my own party. It is an ominous 
development. There has been a set of principles since the Magna 
Carta that the authority that appropriates money should not be 
the same authority that spends that money. That is why we have 
a separation of powers. Congress makes law but cannot enforce 
it. The President enforces law but cannot make it. Congress 
declares war but cannot wage it. The President wages war but 
cannot declare it. And Congress appropriates money but cannot 
spend it. The President spends money but cannot appropriate it. 
There is a reason why earmarks breed corruption. They breakdown 
that same separation of powers that is at the center of our 
constitutional architecture.
    So, I would simply say in response to the subject matter, 
Mr. Chairman, with all due respect, the fault, dear Brutus, is 
not in our stars and it is not in our presidents, but it is in 
ourselves that we are underlings. I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
yield five minutes to the gentlewoman from Illinois, Ms. 
Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. You know, I have 
to be honest, other than the Members of Congress and legal and 
constitutional scholars, I really don't believe that most 
everyday Americans are thinking about the Congress' power of 
the purse and what the framers intended. And while I certainly 
believe that it is critical that the Congress control how the 
peoples' tax dollars are spent, the people are thinking more 
about things like whether or not they have access to quality 
healthcare, that their children are safe at school, and that 
they are able to pay their bills, their rent, and their 
mortgage.
    So, what I would like to do is go witness by witness and 
ask if you can give me an example of why these questions about 
the control of federal spending matter in the real world. I 
will start with Ms. Reynolds, just real short because I don't 
have that much time.
    Dr. Reynolds. Sure, thank you. I think what is important to 
remember is that Congress and the executive branch both have 
roles to play here. The executive branch makes certain 
decisions. But someone has to make sure those are good 
decisions, and that is Congress' responsibility. And so, if you 
have a constituent who calls the Social Security and waits a 
long time on hold, how else are you supposed to help them than 
sort of investigate and oversee what is happening?
    Ms. Schakowsky. That is an example. That is good. That is 
an example. OK, and Ms. Hempowicz--Hempa----
    Ms. Hempowicz. You got it.
    Ms. Schakowsky. Did I get it? OK, Hempowicz.
    Ms. Hempowicz. Yes. I agree with you. I don't think--even I 
am not sitting around my kitchen table talking about 
apportionment decisions. But I think one thing, not a specific 
example, but I think the growing tension between Congress and 
the executive branch and the fights that publicly play out over 
access to information and access to documents, that Congress 
needs to conduct rigorous oversight. I think that is certainly 
permeating to the kitchen table. And I think as we see I 
think--and that points to the necessity for bills like the 
congressional Power of the Purse Act to show your constituents, 
we are doing what we can to empower ourselves----
    Ms. Schakowsky. I hear you.
    Ms. Hempowicz.----to address your concerns.
    Ms. Schakowsky. I hear you. And, Ms. Emmanuelli Perez, if 
you could--Emmanuelli Perez--if you could answer that as well?
    Ms. Emmanuelli Perez. Yes, certainly, ma'am.
    Ms. Schakowsky. An example would be good.
    Ms. Emmanuelli Perez. Yes. It is important because even 
though everyday citizens may not be looking specifically at 
these types of decisions all of the time, they do see where the 
government gives them service. They do see where the branches 
are either, you know, negotiating or disputing. And so, it is 
important to them, as well, to make sure that everyone has the 
information needed in order to carry out our function.
    Ms. Schakowsky. OK, and Mr. Paoletta. I have a feeling I 
know what your example is going to be but go ahead. Can you 
give----
    Chairman Yarmuth. You need to unmute.
    Ms. Schakowsky. Go ahead.
    Mr. Paoletta. I apologize. It is important for Congress to 
write clear laws, you know. So, they set out the program 
requirements and then the executive branch is going to 
implement that law. And I think that is the problem in terms of 
why people are sort of when they watch Congress and the 
executive branch fighting, that it is a lack of clarity from 
Congress as to what they expect from the executive branch. And 
what I see and what I saw are Congress, you know, Congress 
encroaching on the executive branch in their implementation of 
the law.
    Congress passes the law. That is what they do. They can't 
day-to-day implement the law. That is why the President does 
it. That is his constitutional responsibility. So, I think 
writing clear laws so that there is better focus on how that 
law gets implemented.
    Ms. Schakowsky. Thank you. I barely have time for my 
question, actually, which is about the role of the GAO. And I 
think I will jump to if Ms. Emmanuelli Perez, if you could talk 
about and elaborate on what the role of the GAO decisions play 
in congressional oversight of the executive spending. I know 
you talked a bit about that, but if you could elaborate on 
that. Are you still here?
    Ms. Emmanuelli Perez. Yes, ma'am. So, the role of GAO is 
really to help Congress in its constitutional power of the 
purse. It is important that Congress has the information that 
it needs and GAO through its audits and in its decisions, is 
the one that is providing that information and really helping 
Congress in terms of carrying out those laws, carrying out the 
power of the purse, and ensuring that Congress can then make 
changes as it sees fit and ensures that the executive is 
carrying that out appropriately.
    Ms. Schakowsky. Well, I have always felt that the GAO has 
played a very important and constructive role. So, I thank you 
for that, and I yield back.
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize the gentleman from Wisconsin, Mr. Grothman, for five 
minutes. You need to unmute, Mr. Grothman. He has left the 
building. I don't see him there visually. So, we will come back 
to him. I now recognize the gentleman from Michigan, Mr. 
Kildee, for five minutes. Mr. Kildee? All right, he probably 
didn't expect to be called on so soon. Is Mr. Smucker 
available?
    Mr. Smucker. Yes. Can you hear me, Mr. Chairman?
    Chairman Yarmuth. Yes, Mr. Smucker. The gentleman from 
Pennsylvania is recognized for five minutes.
    Mr. Smucker. All right. Sorry about that, caught me by 
surprise a little bit there.
    Chairman Yarmuth. Yes, I know. All right.
    Mr. Smucker. Thank you so much for holding this hearing, 
Mr. Chairman. I was pleased that we are holding a hearing on 
this important topic. And actually, a little surprised given 
that it is based on the actions taken by President Biden on his 
very first day in office relative to the----
    Ms. Schakowsky. Is there any reason for me to stay on?
    Mr. Smucker.----relative to the border wall. I think if we 
were to be consistent with the comments made last Congress by 
Democrats and by the Chairman, we should be calling this 
executive order illegal. I don't know that I have specifically 
heard that word today, but, you know, this is I think an 
important discussion to have. And, certainly, you know, to the 
point that was made earlier about what people care about, 
people care, certainly in my district, about what is happening 
on the southern border.
    We are seeing a real crisis here on the border. I can tell 
you I saw firsthand along with, you know, many of my colleagues 
who have visited the border and seen the impact on the border. 
Certainly, the impact on the border patrol agents who are just 
completely overwhelmed. And so, this is a real crisis that we 
are dealing with as a result of what I think is an illegal 
action by the President: freezing the congressionally 
appropriated funding for the construction on the southern 
border wall.
    So, Mr. Paoletta, you know, I would just like to ask you 
whether you would make that statement? Based on your work at 
OMB and the standard that was set last Congress as we talked 
about President Trump's actions, do you believe that the 
President's action in this case were illegal?
    Mr. Paoletta. Yes, I do, Congressman. I think they are 100 
percent illegal, and it is very clear from his actions and his 
statements. During the campaign, he said he wouldn't build 
another foot of wall. On his first day, he issued an executive 
order pausing all funds. Every report is that all funds have 
been paused and construction has been completely stopped, which 
is a terrible policy decision, but for purposes of legality, it 
is illegal.
    His press secretary also said they weren't going to spend 
any more money on the wall. And then he put it in his Fiscal 
Year 2022 discretionary request that he wants to have Congress 
rescind all unobligated balances. So, that is completely 
different than what we were doing in the Trump Administration, 
which was within the appropriation, trying to figure out how we 
would spend those funds.
    So, it was consistent with the appropriation. It wasn't 
defying the appropriation. That is why this is illegal. And it 
is interesting to hear GAO say that she started looking at it 
and talking internally. It would be interesting to know exactly 
when they reached out to the Administration to ask their views. 
It seems like it was well after the 2-months when the senators 
in the House sent a letter asking them to look at it.
    Mr. Smucker. Yes, well, they will have an opportunity to 
answer that question a little later. But, you know, I would 
like to, I guess, hear from you, why do you think we are not 
talking about this in those terms, particularly in what we have 
seen my colleagues from the other side of the aisle really talk 
about the Administration last cycle. Why aren't we doing that 
this cycle relative to this action?
    Mr. Paoletta. You know, I was on the--we were on the 
receiving end of the Trump OMB of the letter from the Chairman 
on, I think it was September 27, 2019, asking us for a ton of 
documents. He says he has reached out to OMB to ask for 
information. That is a little different in terms of how he 
handled the Trump hold. And the media has been completely 
silent on this. And any story--in fact, there was a political 
story that ran complete cover, in my opinion, for the Biden 
hold. And so, it is really to me disappointing that, you know, 
if you are going to be--and, you know, enforcing or wanting to 
strengthen the power of the purse, you would be using it right 
now on this President for what he is doing.
    And it may be----
    Mr. Smucker. Thank you. I am going to stop you at that if 
you don't mind. I am running out of time, you know. And I do 
appreciate the Chairman holding this hearing. I said that. I 
meant that. And he has certainly introduced legislation that 
would, you know, give more Budget Committee responsibilities to 
the GAO.
    I think a better solution would be to empower this very 
Committee to fulfill its responsibility in the government 
funding process. And I am talking about marking up a budget 
resolution for a given fiscal year, which we have not done. It 
is now nearly May, and we have yet to even consider a Fiscal 
Year 2022 budget resolution. And meanwhile, the appropriators 
are already drafting their bills. You know, it is additionally 
under threat of a second multitrillion dollar bill being passed 
through reconciliation. You know, it's a tool that is supposed 
to be used to reduce the deficit and not increase it by 
trillions.
    So, you know, I think to restore fiscal accountability, 
restore transparency, responsibility, we got to return to 
regular order within this Budget Committee to for us to play 
and continue to be a key player in this process. I think it is 
very important that we do that. Thank you, Mr. Chairman.
    Chairman Yarmuth. Thank you. The gentleman's time has 
expired. I will remind you, Mr. Smucker and others, that we are 
now awaiting a GAO opinion, which according to our witnesses 
notably could soon to be issued. So, we will be able to know 
what the GAO's opinion is in relatively short order.
    With that, I don't see Mr. Grothman has returned. Has Mr. 
Kildee returned? I will now recognize the gentlewoman from 
California, Ms. Chu, for five minutes.
    Ms. Chu. Thank you, Mr. Chair. Dr. Reynolds, I represent a 
district in California, and in California, there are several 
so-called sanctuary cities. These are cities that were very 
disturbed with the Trump Administration's approach to 
immigration enforcement. And especially with his wanting 
federal law enforcement to enter state and local jails to 
question and prosecute people for their immigration or 
citizenship status, and, therefore, frightened members of their 
cities who might not cooperate with the police.
    Well, one of President Trump's first executive orders in 
January 2017, directed federal agencies to withhold funds from 
these so-called sanctuary cities. The order was repeatedly 
blocked in court, but the Administration continued to pursue it 
for the entirety of President Trump's term.
    And then, there was another attempt to target California in 
December 2020, as California was about to hit the peak of 
coronavirus cases. That is when the Trump Administration 
announced it would be withholding $200 million in Medicaid 
funding quarterly because of California's requirement that all 
private health plans in our state cover abortion services. Not 
only did this put the lives of Californians struggling to fight 
off a pandemic in danger, it showed blatant executive overreach 
because the funding the Trump Administration threatened to 
withhold, had nothing to do with the alleged violations or 
restrictions on abortion funding.
    These repeated attempts to place unauthorized restrictions 
and conditions on congressionally appropriated funds was, of 
course, another attempted encroachment on Congress' power of 
the purse. But it is also democratic unelected Administration 
officials seeking to disburse the funds--were doing so 
unilaterally without responding to voters and gaining approval 
in Congress.
    So, could you talk about the accountability measures that 
the executive branch even needs when it circumvents Congress in 
this way? How do Americans have less transparency into this 
process when it happens this way?
    Dr. Reynolds. Thank you, Representative Chu. It is a great 
question. And I think it really comes back to the heart of what 
is on the table here when we talk about this legislation, which 
is that Congress needs as much information as it can get from 
the executive branch to make responsible spending decisions. 
And that includes information around the kinds of things that 
you are describing.
    I will also reiterate something that I mentioned in my 
testimony, which is the increasing reliance or the increasing 
need to rely on the federal courts by Congress to try and 
enforce its spending and other policy decisions. And one major 
challenge there and one of the reasons why Congress needs to 
bolster its own authority is because that process is incredibly 
slow.
    So, you mentioned in the case of California, sanctuary 
cities. And you talked a little bit about the length of time 
that court fight went on. We have many other examples of 
lengthy court fights. And so, one of the reasons that Congress 
needs to give itself more tools is so that it does not have to 
turn to the federal courts who move quite slowly in this area, 
to try and have that as a backstop in these disputes with the 
executive branch.
    Ms. Chu. Thank you so much. Now, I would like to ask Ms. 
Perez a question about the ability for GAO to operate. And that 
is I am the--I was last October, the Chair of the Subcommittee 
on Oversight for the Small Business Committee, and the GAO's 
Director William Shear testified that the Trump Administration 
refused to give GAO access to documents and information 
concerning the implementation of the Paycheck Protection 
Program. And also resisted implementation for an oversight plan 
for PPP until December. Using this example of PPP, can you 
describe why GAO needs timely access to agency documents and 
information and how that may have hampered implementation and 
congressional oversight of the program?
    Ms. Emmanuelli Perez. Yes, ma'am. So, and this is an 
example of when GAO needs access to information as quickly as 
possible to be able to carry out its oversight for Congress. 
So, in the programs that you are describing, obviously, we are 
looking at the CARES Act and various funds and authorities 
provided there. And so, in order to give Congress the most 
timely advice and the most timely review, we need to have that 
information promptly.
    With those types of delays, unfortunately, it then delays 
our reporting to Congress. It delays our ability to be able to 
give you the advice that you need and the information that you 
need. So, that definitely does have an impact on Congress' 
oversight.
    Ms. Chu. Thank you. I yield back.
    Chairman Yarmuth. Somebody muted me. I now recognize the 
gentleman from Texas, Dr. Burgess, for five minutes. I know Dr. 
Burgess is here. Unmute your mic, please, unless he left. I can 
see Dr. Burgess on the screen. Dr. Burgess, you have five 
minutes for your questions.
    Mr. Burgess. Well, can you hear my question?
    Chairman Yarmuth. No, we didn't. Now we hear you though.
    Mr. Burgess. All right, very good. Thank you, Chairman. 
Thank you to the witnesses for joining us today. Mark Paoletta, 
it is good to see you again. Mr. Paoletta spent a good deal of 
time as Chief Counsel on our Oversight Investigations 
Subcommittee on Energy and Commerce. A subcommittee that I have 
always held in very high regard. One of the most important 
subcommittees in the U.S. House of Representatives.
    But I am just going to ask you again, Mr. Paoletta, and I 
think the Ranking Member Smith and perhaps Representative 
Smucker had also made this point, but it seems like we have got 
a set of parallel circumstances. January 16, 2020, the 
Government Accountability Office determined the President did 
not withhold funds under the Impoundment Control Act for policy 
reasons. And then on his first day in office, President Biden 
signed a proclamation pausing all obligated funding for the 
border wall construction and directing the Secretary of Defense 
and Homeland Security to create a plan to redirect these funds.
    So, is there a substantial difference between the actions 
of then President Trump and now President Biden in regards to 
those two activities?
    Mr. Paoletta. Yes. They are completely different. When the 
funds were paused on Ukraine, the very first hold was 10 days. 
It was literally to try and pause the funding so that--because 
there had been concerns about the funding expressed by the 
President. So, there had been a process right below, that 
doesn't end the process, right? In the executive branch, the 
president is the person who makes the decision at the end of 
the day. And so, we wanted to pause the funds to allow a policy 
discussion to happen. I wasn't part of that policy process, but 
we were able to pause those funds. And at the end of the day, 
those funds were spent consistent with the appropriation, 
right?
    What is happening here is that it is completely designed to 
thwart that appropriation because President Biden has already 
said he doesn't want to build another foot of the wall. His 
executive order said it is a waste of money.
    Mr. Burgess. Let just ask you though if I could, the GAO 
though made a determination when President Trump paused the 
funding that seems like it would have to be consistent, it 
would have to make the same decision about the pausing of the 
border wall funding. In other words, the inconsistency of 
coming to a different conclusion giving those two fact sets, 
well, that just wouldn't be possible, would it?
    Mr. Paoletta. It would be impossible.
    Mr. Burgess. Well, I mean, that is what is so frustrating 
for so many of us. I live in Texas, not on the southern border. 
I live on the northern border. But made many trips down there 
over there over the years and to see the border wall 
construction literally halted and with big gaps and that is 
where the cartels and coyotes are directing their human 
smuggling and human trafficking. And it is heartbreaking.
    It is, in fact, President Biden's own commander of the 
public health service at the Dallas Convention Center where 
2,400 of these young men remained under an emergency hold, he 
said that we are responding to a--it is a crisis management 
situation. Well, you wouldn't have a crisis management 
situation if you didn't have a crisis.
    Look, I just left another hearing and we are talking a lot 
about budget process here today. And I know that is something 
that can bore people, but you are very familiar with, 
unfortunately, the oversight of the Environmental Protection 
Agency and the Energy and Commerce Committee, for several years 
going back to an IG report in 2015, when they suggested that 
the Title 42 exceptions for salaries in the EPA were never 
authorized by the U.S. Congress.
    And, in fact, I had an opportunity to question the new 
administrator. He seemed unaware of that. He did make a promise 
that he would come back with forthright and transparent data 
for the subcommittee about their hires. They are set to hire a 
bunch of new people. They thought the Trump Administration made 
too many personnel cuts. So, they are on a hiring spree. And it 
concerns me that having never authorized the Title 42 
exceptions to the senior executive service salaries, that the 
possibility of overspending on those positions is a very real 
one. So, would you agree that the authorization needs to occur 
before the expenditure can happen?
    Mr. Paoletta. That is the best way to do it. To authorize 
programs and, again, pursuant to I think your House rules, you 
would need to--it would be best to authorize before you 
appropriate.
    Mr. Burgess. Thank you. And, Mr. Chairman, Chairman 
Yarmuth, I just have to also echo what Ranking Member Smith 
said about getting back to normal hearings. Look, the Doctors 
Caucus sent a letter to our House leadership. Many of us have 
been vaccinated. Others have had the illness. We need to be 
able to meet in a more normal fashion because there is just so 
much you get out of an in-person hearing that you cannot get. 
And we have seen the technical problems that we have 
encountered. I encountered them on the E&E hearing as well. We 
have to get passed that point. We can't do the peoples' 
business if we can't meet as the people intended. And thank you 
and I will yield back.
    Chairman Yarmuth. Thank you, Dr. Burgess. And I was going 
to save this until the end, but I will commit to the Ranking 
Member and to you and all the Members of the Committee that the 
next Committee we have, I will be in the hearing room. And we 
will at least have a hybrid at that point. So, I want to 
accommodate my friends on the other side and some of ours too. 
I am sure we would all prefer to be back in that situation. But 
I will be in the hearing room for the next hearing. I now yield 
five minutes to the gentlewoman from Virgin Islands, Ms. 
Plaskett.
    Ms. Plaskett. Thank you, Chairman Yarmuth and Ranking 
Member Smith for holding this hearing to explore how Congress 
can reassert its power of the purse. I appreciate the 
opportunity to examine this important issue. Several of my 
colleagues have noted despite the Constitution's clear 
delegation of tax and spending power to Congress, various 
Presidential Administrations have steadily infringed on this 
authority in recent decades.
    This infringement is concerning because it represents a 
shift in power away from our constituents who have elected us 
and, therefore, a weakening of their voices in important 
decisions regarding funding allocations. Dr. Reynolds, this 
issue is particularly personal for me and for my constituents, 
the American people of the Virgin Islands.
    As some of you may remember, two Category 5 hurricanes, 
Irma and Maria, struck the Virgin Islands in 2017, and caused 
devastating amounts of damage that my constituents are still 
grappling with every day. When I say still grappling with, we 
have not to this date, had put up the mobile hospital unit. 
FEMA and others have not agreed until just recently on the 
mobile unit for us to have a hospital. Never mind the rebuild 
of the hospital. And while Congress appropriated billions of 
dollars to provide emergency relief for areas impacted by the 
hurricanes, such as the example I gave you, the previous 
Administration significantly delayed the disbursal of these 
funding to both the Virgin Islands and Puerto Rico.
    These delays have negatively impacted our ability to 
recover from the disaster, to rebuild, and to prepare for 
future hurricanes. We have seen this in inspector generals 
reports just recently about Puerto Rico. Can you, Doctor, speak 
to how recent encroachments by the executive branch on 
Congress' power of the purse can lead to prioritization of a 
president's political priorities over the needs of our specific 
constituents?
    Dr. Reynolds. Thank you, Congresswoman Plaskett. I 
appreciate the question. And I think that your experience and 
that of your constituents does illustrate one of the challenges 
that is sort of inherent in Congress and the executive branch 
having to work together to deliver services and meet the needs 
of the American people. And I think that, again, one of the 
purposes of this legislation of the issues that we are talking 
about today, is to try to make sure that you, as Members of 
Congress, are getting more information, better information, in 
a timely fashion to be able to say to the executive branch you 
are not doing what we, Congress, intended with our 
constitutional tax and spend powers when we told you that you 
have this money to spend on, in your case, replacing--building 
a mobile that will be replacing a hospital in your district.
    And so, I do think, again, that that is to Representative 
Schakowsky's earlier request for examples of why this matters. 
I think that is another good one. And I appreciate you raising 
it.
    Ms. Plaskett. Thank you. That leads me to you, Mrs. 
Hempowicz. You recently discussed the lack of transparency 
regarding Office of Management and Budget's apportionment 
decisions, which show how money is being allocated within an 
agency. And you have recommended that Congress require OMB to 
publicly post all apportionment schedules, including special 
notes in apportionment documents. Can you speak to how these 
apportionment decisions can sometimes be used to advance a 
president's policy goals rather than simply serving the 
intended administrative purpose?
    Ms. Hempowicz. Yes, thank you so much for that question. 
You are right. You know, I think these footnotes, apportionment 
footnotes are a very technical thing. And so, you know, I guess 
an example of that is saying that, you know, money that has 
been appropriated can't be spent until a report has been issued 
about how those funds would be spent, or how the funds under 
that project would be managed.
    But it also, you know, there is no requirement for 
specificity in these footnotes. And so, you can also get 
something that is as vague as, you know, we are going to do an 
interagency process to determine the best use of the funds. 
That doesn't tell Congress a lot. That doesn't tell the 
American people a lot. You know, what is that inter--what is 
that interagency process? What policy are you trying to 
accomplish? And that I should say was the reason given for 
the--in the footnote on the hold for the Ukraine assistance.
    And so, I think that just goes to show that like, you know, 
these--the vague explanations are part of the problem. If there 
was more--if there was more transparency to Congress you could 
see that vague explanation, reach out to OMB, reach out to the 
White House, reach out to the State Department and say, what is 
this interagency process? Ask some of those questions. Because 
it is not always something nefarious going on. But if you don't 
have the information you need to conduct effective oversight, 
nefarious things can be going on in the background that the 
public will never know and the Congress will never know about 
and can't correct for.
    Ms. Plaskett. Thank you very much. And thank you, Mr. 
Chairman, for the opportunity. This is very insightful, and I 
yield back.
    Chairman Yarmuth. The gentlewoman's time has expired. If he 
is in the room, I don't see him, but Mr. Carter would be up 
next. Mr. Carter of Georgia are you here? OK, if not, I don't 
see Ms. Wexton of Virginia as well. But I know I see Mr. Scott 
of Virginia, and so, we will come back and get any others who 
might have been thrown off by the change in schedule. I now 
yield five minutes to the gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you. Thank you, Mr. Chairman. I would like 
to ask Ms. Emmanuelli Perez what is the legal effect of a GAO 
conclusion that impoundment is inappropriate? Does it have any 
enforcement effect?
    Ms. Emmanuelli Perez. Well, sir, GAO doesn't enforce the 
decisions that we issue. They are really intended for both the 
Congress and the executive branch to have the benefit of those 
legal decisions. So, in the case of an Impoundment Control Act 
decision, when we say that the Impoundment Control Act has been 
violated, the effect really is for the executive branch to 
immediately have to release the funding. That is release the 
withholding and ensure that those funds get obligated on time.
    Mr. Scott. But if there is a disagreement, the disagreement 
just lands. What is the recourse if there is a--if the 
executive branch just disagrees with your decision, what is the 
recourse under present law? And what would be the recourse 
under Chairman Yarmuth's legislation?
    Ms. Emmanuelli Perez. Yes, so, the resource under present 
law is that, of course, since we at GAO can't enforce the 
decision, it really is up to Congress to enforce it. So, you 
know, in the case of the Impoundment Control Act or any other 
appropriations law issue, Congress can certainly enforce that.
    With respect to under the Chairman's Power of the Purse 
Act, it would provide some additional authorities for the 
executive branch to not take these additional legal, you know, 
practices and look and try to use them in a way that are not, 
you know, in accordance with either the Impoundment Control Act 
or the Antideficiency Act or other laws.
    So, it really would be emphasizing, you know, certain 
reporting, emphasizing certain actions that the executive 
branch would have to take and ensuring that those follow the 
decisions as shown by GAO.
    Mr. Scott. You mentioned Congress, what can Congress do if 
there is a violation? How does it enforce the impoundment 
violation?
    Ms. Emmanuelli Perez. Well, Congress certainly, you know, 
as part of its own legislative process with the oversight, as 
well as with appropriations, you know, Congress has taken 
actions before in either cutting the budgets of agencies or 
identifying areas where they feel that an agency has to take 
action. So, certainly, Congress through that oversight and 
legislative process can do that.
    Mr. Scott. If you have something that has been properly 
authorized and appropriated, but depends on promulgation of 
rules, and the executive branch just refuses to promulgate the 
rules, what happens in that case?
    Ms. Emmanuelli Perez. Well, it certainly would depend on 
the particular facts, whatever law is authorizing it, what the 
rules that are being required of the executive branch. So, 
certainly, you know, we would be taking a look at whether there 
are certain actions the agency has to take by law and 
identifying if they have not done so. And, again, that could be 
up to, you know, Congress to enforce that.
    Mr. Scott. And can you say a word about violations that 
happen during a government shutdown?
    Ms. Emmanuelli Perez. Yes. With the government shutdowns, 
one of the issues that we have seen and we have issued a number 
of decisions on this in the past year and a half, is that 
agencies may have often tried to really expand on the authority 
that they would have to continue operation. So, under the 
Antideficiency Act, it is very specific that only--the only 
exceptions really are for constitutional duties, as well as for 
emergency type situations. Not for regular operations or 
ongoing operations of agencies.
    So, we do have a couple of examples where agencies did go 
beyond the Antideficiency Act. The other thing that we would 
recommend would be really that Congress have more oversight, 
you know, the ability to see how agencies are obligating funds 
during shutdowns. So, in addition to understanding their plans 
for shutdowns, that they would see what exactly they obligated, 
what activities they carried out. And we think that would be 
really helpful in terms of the oversight that GAO can assist 
the Congress with.
    Mr. Scott. And what can be done if--in these cases you have 
an executive branch and a legislative branch, probably a 
contentious split in the legislative branch, what can actually 
be done if the executive agency just goes ahead and spends the 
money?
    Ms. Emmanuelli Perez. Well, if an agency, for example, 
violates the Antideficiency Act, and if GAO, for example, finds 
that the agency had violated the Antideficiency Act, then what 
we have said is that the agency should report that violation to 
Congress. And in reporting that violation to Congress, they are 
going to provide information about the rationale for using the 
funds, what actions they are taking with respect to ensuring it 
doesn't recur, and any discipline or other action. So, we think 
that having Congress ensure that those types of violations are 
reported are really going to assist again in that transparency 
and oversight.
    Mr. Scott. Thank you, Mr. Chairman, and I yield back.
    Chairman Yarmuth. The gentleman's time has expired, and I 
yield five minutes to the gentleman from Iowa, Mr. Feenstra.
    Mr. Feenstra. Thank you. Thank you, Mr. Chair, Chairman 
Yarmuth and Ranking Member Smith. Thank you, Mr. Chair, for 
having this hearing today. I want to thank each of the 
witnesses for their testimony. I am new to Congress, but not 
new to the government finance, especially when it comes to city 
and state governments. I was a City Administrator and a State 
Senator. And I am very cognizant of budgets. And in my home 
state, we have specific rules that we do not spend more than we 
take in. We have a 99 percent spending level. I have found very 
little concern of this at the federal level.
    Mr. Chairman, you said on the House floor that the national 
debt will probably rise to about 50 trillion in the next couple 
of decades. You mentioned several historical points where our 
debt grew but did not mention that or in terms of debt to GDP, 
and at that time our debt to GDP is about 50 percent. Well, 
today, our debt to GDP is well over 100 percent and we are in 
uncharted waters, which we just can't shrug off as we move 
forward.
    I am new here, but you don't have to be a Member of 
Congress to see that we are piling up debt on this credit card 
and it has consequences. Mark Paoletta, this question is for 
you. The National Oceanic and Atmospheric Administration has 
existed over 50 years without ever being codified into law. A 
2016 CBO report highlighted that many federal agencies like the 
State Department, HUD, and the National Weather Service haven't 
been reauthorized in decades.
    Just last year, the CBO released a report that found $332 
billion of funding was provided to 407 expired authorizations. 
It seems to me that there is a lot more ways than the 
Impoundment Control Act for Congress to reclaim the power of 
the purse. We could actually try to do our jobs and pass timely 
legislation through regular order, rather than spending weeks 
on messaging bills shouting our political talking pounds. I 
have been digging into these reports and we aren't suffering 
from a lack of things to do.
    So, Mr. Paoletta, my question is you have worked both on 
committee and at the OMB, do you believe that autopilot funding 
and authorizing as needed in omnibus bills impacts how the 
executive branch functions? And who benefits from this, the 
executive or Congress?
    Mr. Paoletta. Well, the people who don't benefit are the 
American people. Congress needs to do their job and authorize 
programs in clear and understandable terms as to how programs 
are supposed to work. The fact that there are hundreds of 
unauthorized programs, some as you said, the Department of 
State is unauthorized, is outrageous. And passing omnibus 
appropriations that throw massive amounts of money in a very 
vague way, you know, that has the legislative branch 
encroaching into the executive branch on how to implement it. 
What Congress needs to do is to pass a budget, pass 
appropriations bills on time, and that is the best way to make 
our government work. That is as simple as it can be.
    Mr. Feenstra. I agree. So, how did the train go off the 
rails? I mean, how did this all begin and how do we get the 
train back on the track?
    Mr. Paoletta. My views in Congress is, you know, I am not 
going to--it is in Congress' control as to pass their budgets, 
to authorize their programs, and to pass appropriations bills 
on time. I am not sure what the answer is. It is just I know 
that the way it is run right now, and particularly having 
worked in both branches and most recently in OMB, it is very 
difficult as Congress does--and you see these--what is 
interesting, Congressman, is the idea that there is going to be 
this broad appropriation and then Congress is going to come in 
on individual levels and tell the executive how to spend the 
money. That is not their role, right? The law, what they pass 
is what is important, and is the guiding light as to how you 
are going to implement a program.
    And just one more point, if I may. Just in terms of 
transparency, it would be useful if FOIA was applied to 
Congress, right? We all talk about the transparency of the 
executive branch and, you know, looking, you know, sunlight 
being the best disinfectant. It is outrageous, in my view, that 
Congress is not subject to FOIA. GAO is not subject to FOIA. 
So, what goes into lawmaking? One of the witnesses said, you 
know, we pass a law, that is sunlight. No, what went into that 
law as to why it was passed and what a member thinks it should 
be, you know, doing when it is enacted. So, I think FOIA 
applying to Congress would be a great way to actually help the 
system work better.
    Mr. Feenstra. I would agree. I would agree 100 percent. 
Thank you, Mr. Paoletta, for your comments. Mr. Chair, I yield 
back.
    Chairman Yarmuth. I thank the gentleman. His time has 
expired. I now recognize the gentlewoman from Iowa, Mrs. 
Hinson, for five minutes. I think she was the first one to sign 
on today, so, you have been very patient.
    Mrs. Hinson. Thank you, Mr. Chairman. Can everyone hear me 
OK? OK, thank you. Thank you for holding this hearing today. I 
believe this is an incredibly important topic and I would like 
to thank my colleague from Iowa for his comments on 
unauthorized programs. It is very difficult for appropriators 
and us here on the Budget Committee to do our job when Congress 
is failing at doing its basic oversight, its basic job of 
authorizing, and its basic job of appropriating.
    So, I have only been in Congress a few short months and 
already I am concerned about the lack of transparency and 
fiscal responsibility that I have seen here in Washington. I 
think it is incredibly important that Congress does reassert 
its control over the power of the purse. I am a member of the 
Appropriations Committee and the Budget Committee. And there is 
a reason that the committee is required to include the 
perspectives of appropriators because we do see those spending 
decisions and authorizations from this Budget Committee all the 
way out the door. I personally believe this is incredibly 
important in advocating for the taxpayers of Iowa and this 
country and fighting for transparency throughout this process.
    So, my first question today is for Ms. Hempowicz. Simple 
here that you have done a lot of work on transparency, 
accountability, freedom of information. So, how does the impact 
of administrative deferrals or recissions like what we have 
seen with President Biden's redirecting of these border 
security funds recently raise concerns about transparency in 
this process?
    Ms. Hempowicz. I think, you know, the fact that 
apportionments are issued in secret, you know, raises a lot--it 
makes it much difficult for--much more difficult for Congress 
to fulfill its role as overseeing the spending process. You 
know, Mr. Paoletta said how Congress passes the law and it is 
the executive's job to implement it. But that is not the only 
job of the executive. It is to implement that law with the 
intent of Congress in mind. And when there is no transparency 
here and when we have seen, as we have, that there is a lot of 
room for flexibility for the executive to interpret things as 
they would see fit, and in ways that maybe run counter to what 
congressional intent was, there is a lot of room for 
manipulation in this process. And I think transparency is one 
of the things and certainly not the only thing but is one thing 
that will dramatically rebalance power between the executive 
and Congress.
    Mrs. Hinson. And what do you think about the transparency 
or the impact on transparency when an Administration fails to 
notify Congress of what it is doing?
    Ms. Hempowicz. Yes, I mean, again, it just goes to 
Congress' decreased ability to conduct rigorous oversight over 
the executive branch. Something that the Project On Government 
Oversight believes is incredibly important no matter who is in 
the White House. And the less transparency to Congress means 
that it takes longer for you to do that oversight, for you to 
get that information. Because eventually you will likely get 
it, but in that time, you know, what have you missed?
    It is also, I think, important to mention how, you know, 
fighting with the executive branch to release information to 
Congress takes up so much time of your staff. Your staff has so 
many responsibilities to do and to execute in a given day. You 
know, if there was transparency required in the law, proactive 
transparency that will give you a lot of that information, you 
can redirect your staff to more important things because you 
have got access to those documents and now you are able to 
fulfill your oversight function.
    Mrs. Hinson. Right. Well, thank you for your feedback on 
that issue. And then my next question is for Deputy Counsel 
Perez. I know you are familiar with our Constitution so, as we 
read the section that gives the executive branch authority to 
spend funds, do they have the authority to spend funds for 
purposes other than what Congress has appropriated?
    Ms. Emmanuelli Perez. No, ma'am. The whole purpose there is 
that with the purpose statute with the actual appropriations 
themselves, the executive branch does have to follow what the 
Congress has appropriated. Now, certainly, Congress sometimes 
is much more specific in some cases in what the funds should be 
spent for. There are times, of course, when Congress also has 
provided the executive with some discretion. But the whole 
intent is that the executive branch needs to follow the laws 
that Congress has passed and that the President----
    Mrs. Hinson. And I agree, legislative intent is crucial and 
paramount here. So, you also talk about the Impoundment Control 
Act in your testimony that it was enacted to stop executive 
overreach. What do you consider to be executive overreach? What 
is that threshold for you? And what actions are being taken to 
prevent overreach for this current Administration in regards to 
the border wall funding freeze?
    Ms. Emmanuelli Perez. Well, with respect to the border wall 
funding freeze, obviously, we have that decision that is 
pending. We have not issued it yet. And we are, of course, 
waiting for information. Part of what we did was immediately 
start to contact the agencies when we learned of the 
President's proclamation and, you know, to start to ask for 
information. And then, of course, followed up with development 
letters.
    The whole purpose there of the Impoundment Control Act is 
we need to look at that there is a process there in the 
Impoundment Control Act, and the President has to follow that 
process. That is to notify Congress with specific conditions 
provided by the law and to not, for example, you know, propose 
deferrals for policy reason and in the case of any policy 
situation, the only process really is to propose a recission. 
And so, what we look at there is what has the executive branch 
carried out? We look at the rate of obligations. We look at 
what, for example, in these cases, what has OMB instructed? 
Those are all critical parts of that analysis.
    Mrs. Hinson. OK, thank you, Ms. Perez. And, Mr. Chairman, I 
would like to ask unanimous consent to submit our letter for 
the record that House Appropriations Committee Republicans, 
including myself, wrote today to Vice President Harris 
requesting an update on the results of the funding pause. So, I 
would seek unanimous consent to add that to the record today.
    Chairman Yarmuth. Without objection, so ordered.
    Mrs. Hinson. Thank you. I yield back.
    [Letter submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize Mr. Cline of Virginia for five minutes.
    Mr. Cline. Thank you, Mr. Chairman. I appreciate you 
holding this important hearing. The power to direct and control 
federal spending is arguably Congress' most important 
legislative tool. So, I am pleased that we are holding this 
hearing regarding ways that we in Congress, and especially on 
the Budget Committee, can restore and strengthen Congress' 
power of the purse against executive branch overreach. This is 
particularly timely since soon after taking office, President 
Biden announced the withholding of funds for construction of 
the southern border wall.
    There are other issues at play on this topic, including how 
Congress can create better legislation, rather than relying on 
end of the year omnibus bills and continuing resolutions to 
govern. So, I will ask Mr. Paoletta, Chairman Yarmuth's bill 
from the last Congress, the congressional Power of the Purse 
Act, modified GAO's role in matters regarding budget and 
appropriations law. Do you have any thoughts about the section 
of the congressional Power of the Purse Act that would make 
administrative and possibly criminal consequences on federal 
branch--federal employees in the executive branch who are found 
to have violated the Impoundment Control Act?
    Mr. Paoletta. Thanks for the question, Congressman. You 
know, the problem with the Impoundment Control Act is that it 
is a very confusing law. And so, I think that it puts federal 
employees in a difficult position, right? You have the 
Antideficiency Act that you can't spend more money than you 
have. And if it is, you know, intentional, that would be 
criminal, and--or, you know, possibly criminal.
    And on the flipside, if you are not spending all your 
funds, you could be--you could be in trouble with these 
administrative sanctions. I think GAO proposed criminal 
penalties for impounding funds. The problem with--the problem 
with--so, I think it is a bad policy idea to impose sanctions 
on individuals with respect to the Impoundment Control Act.
    Mr. Cline. Thank you. I will ask Ms. Perez. Congress' 
reliance on continuing resolutions and omnibus appropriations 
is not an ideal way to effectively and efficiently budget and 
govern. What are some of the GAO's findings with regard to this 
negative effect of this type of governing? And further, what 
impact do CRs have on agency budgets and their ability to 
adequately plan?
    Ms. Emmanuelli Perez. Yes, so, we have done work on looking 
at the impact of continuing resolutions, you know, multiple 
continuing resolutions during a year or actually having them, 
you know, for a full--for a full year. And, certainly, what we 
have found in our work and we are very happy to provide that 
information for the record, is that there are impacts with 
respect to having, you know, having to rework. So, for example, 
multiple attempts to be able to, you know, implement grants or 
to be able to award contracts because you have shorter periods 
for the funding to be available.
    We have seen delays in hiring, delays in other programs and 
programs being implemented because with a continuing 
resolution, one of the things, the prerogatives that Congress 
has is really to kind of really put everything on hold that is 
status quo. And so, agencies then have an impact on being able 
to implement any new authorities. We have seen a number of 
those issues in our work.
    With respect to, you know, to looking at how, you know, how 
that can be approved, we certainly have also seen issues with 
the budget process when there is a continuing resolution. There 
is an impact on the agencies as well in being able to plan out 
their budgets and plan how they are going to implement. So, we 
definitely have seen some negative impacts there.
    Mr. Cline. Can you talk about the ways the GAO can measure 
the amount of waste that is generated from government 
shutdowns? Have you ever tried to quantify it and have you ever 
produced a report related to government shutdowns and the 
amount of waste that is--that are--that is produced?
    Ms. Emmanuelli Perez. We have done work on government 
shutdowns and looked at the impact of, you know, on shutdowns, 
on agency programs. We have not actually, though, really come 
up with any, you know, any estimate of the, you know, the 
amounts that are used there and any possible waste. We do 
understand that there may be other entities that have done 
that, however. And we would be happy to look for that 
information.
    Mr. Cline. Thank you. Dr. Reynolds, you coauthored an 
article in October 2020 that stated, strengthening 
congressional committees could also help the legislative branch 
pushback against the President's use of his budgetary power. 
What are ways congressional committees could serve as an 
effective check on the executive branch?
    Dr. Reynolds. I thank you, Representative Cline. I think 
there are all of the tools that are available to congressional 
committees can be deployed in service of asserting Congress' 
role in the separation of power. So, hearings like this one, 
letters that can be sent looking for additional information. 
Part of, again, what we are talking about today is the ability 
to make that process work better for Congress, make it easier 
for you all to get your information back. And the last thing I 
will say is boosting the staffs on your committee. Making sure 
that you have the ability to hire subject matter experts, to 
compensate them well, to keep them in those roles in order to 
make sure that your committees really have the expertise you 
need to understand the federal programs that you are trying to 
oversee in the executive branch.
    Mr. Cline. Thank you. I appreciate the answers. Mr. 
Chairman, I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize another gentleman from Virginia, Mr. Good, for five 
minutes.
    Mr. Good. Thank you, Mr. Chairman, and thank you to all of 
our guest witnesses. I appreciate your testimony that you 
provided to us. And, you know, I share the concerns that have 
already been mentioned by many colleagues about how the--our 
legislative branch, our legislative body has surrendered so 
much of our power and authority to the executive branch. You 
know, constitutionally there is a reason why Article I comes 
first and deals with the legislative branch. And it is the 
largest portion of our Constitution deals with the legislative 
branch as the founders intended that branch that is closest to 
the people to be the most powerful, dominant branch.
    And I quickly appreciate the remarks previously here today 
by Congressman McClintock from California, what he shared, and 
I would echo his remarks without being redundant and repeating 
those.
    I do have a question for Mr. Paoletta. In your testimony, 
you noted that reforming the ICA--and I am quoting here--``to 
return to a more equitable division of power between Congress 
and the President with respect to the expenditure and 
appropriated funds would allow prudent financial management to 
flourish.'' Can you just speak a little further on what 
recommendations you would have for reforming the ICA?
    Mr. Paoletta. Well, I think it is not so much focused on 
the ICA. I have written on the ICA in my opening statement, but 
I think it is really just a return to regular order. It is 
actually, you know, having well-written authorizations and 
stand-alone appropriations that really lay out what Congress 
wants so there isn't, you know, this broad, you know, 
appropriation or an unauthorized program that continues on. So, 
that is at the heart of it is what I think Congress needs to do 
is authorize programs very clearly as to what they want the 
executive to carry out and then pass appropriations to fund 
those.
    Mr. Good. Well, you did an effective job in your testimony 
also of talking about how dysfunctional we are in the way that 
we are handling our funding now and how we are--it is not 
sustainable what we are doing. I do want to yield the balance 
of my time out of respect to the Ranking Member because he ran 
out of time and I know he had some more questions he wanted to 
ask. So, I do yield the balance of my time to Ranking Member 
Smith, thank you.
    Mr. Smith. Thank you, Representative, for yielding. My 
question, Ms. Hempowicz, you previously wrote an article about 
pandemic spending which stated Congress must make sure that the 
money is really going to protect jobs and keep workers safe. 
That large corporations don't get loans that they don't truly 
need. That crony capitalism doesn't influence who receives 
assistance, and that fraudsters don't rip off taxpayers, 
correct?
    Ms. Hempowicz. Yes. Yes, Ranking Member.
    Mr. Smith. To that end, I understand you and your 
organization even published newsletters called, Corrupted, that 
described instances of corruption, fraud, waste, and abuse 
related to spending and other things during the pandemic?
    Ms. Hempowicz. Yes, sir.
    Mr. Smith. So, if you remember, when did you all begin 
publishing those articles?
    Ms. Hempowicz. I don't remember that.
    Mr. Smith. I think it is like August 13th is--does that 
sound about right?
    Ms. Hempowicz. Sure.
    Mr. Smith. OK. And do you know how often you all 
distributed these articles?
    Ms. Hempowicz. The Corrupted newsletter?
    Mr. Smith. Yes.
    Ms. Hempowicz. I believe it was weekly.
    Mr. Smith. OK. And do you all still distribute these weekly 
newsletters about your oversight efforts?
    Ms. Hempowicz. Not that one in particular for our--the 
content that had been in the Corrupted newsletter is now spread 
between a couple different products. But we are certainly still 
doing investigations and publishing reports on any waste, 
fraud, and abuse that we are able to identify in COVID 
spending.
    Mr. Smith. So, when did you stop doing that weekly 
newsletter?
    Ms. Hempowicz. It was a couple months ago, I believe.
    Mr. Smith. January 14th is what I saw. Does that sound 
about right?
    Ms. Hempowicz. Sure.
    Mr. Smith. You know, given your previous statement that 
Congress must make sure that money is really going to protect 
jobs and keep workers safe and your organization's stated 
commitment to oversee COVID-related spending, coupled with the 
fact that President Biden and congressional Democrats recently 
enacted 1.9 trillion in federal spending, why did you stop 
publishing these weekly reports?
    Ms. Hempowicz. Again, it was a strategic decision behind 
the scenes to kind of make sure that we are using our resources 
well. We are a small organization. We are still absolutely 
publishing that content. You know, I think maybe you are 
suggesting that we have stopped investigating COVID fraud, and 
that is just absolutely not the case, sir.
    Mr. Smith. So, would you say that this is not because there 
is a different occupant in the White House?
    Ms. Hempowicz. Absolutely not. And I would say even earlier 
this week, our organization published a piece critical on the 
Biden Administration in particular. Particularly on some 
revolving door issues that may be affecting some of the 
policymaking coming out of the White House.
    Mr. Smith. You know, I think some waste that you all could 
look into is some waste that I have been reading about and 
discovered just in the last week that billionaires in Florida 
received the $1,400 stimulus check. I think that's pretty 
wasteful, wouldn't you think so?
    Ms. Hempowicz. I would agree. And I would say, you know, a 
lot of the oversight over COVID spending has been actually very 
difficult. And the inspectors general have mentioned that too. 
Partially because last year, the Office of Management and 
Budget undercut some of the reporting requirements that were 
included in the CARES Act that would have given the public and 
the inspectors general and the internal watchdogs more detailed 
information. You mentioned earlier jobs, particularly would 
have given more detailed information about how those various 
programs were reflecting in or not reflecting in increased 
jobs.
    And so, I would say, you know, part of it is, again, we are 
a small organization. We don't have unlimited resources. We are 
trying to make sure that we are using those resources as best 
as we can. But we also did create a tracker. It is called--and 
now I am forgetting the name, but I am sure it is on our 
website--that tracks all the COVID spending. And I believe that 
tracker is the most comprehensive tracker that we have that is 
out there. You know more so than what the government has put 
together. Because it is really important to us as an 
organization that the public is able to track this spending.
    And particularly, on the unemployment insurance that you 
were mentioning, we don't have a lot of data about that. So, it 
is more difficult to do those kinds of investigations. But I 
certainly take your point and it is really important to us as 
an organization. And so, I would encourage you to keep your eye 
on our website because that is where that content is now, not 
in that newsletter.
    Mr. Smith. I didn't mention anything about unemployment 
insurance. I was talking about stimulus checks----
    Ms. Hempowicz. I'm sorry.
    Mr. Smith.----that billionaires don't need.
    Ms. Hempowicz. I'm sorry. I missed that.
    Mr. Smith. So, that may have been someone else. But I 
appreciate that you all----
    Chairman Yarmuth. The gentleman's----
    Mr. Smith.----continue to look at the waste in spending.
    Ms. Hempowicz. Yes, of course.
    Chairman Yarmuth. The gentleman from Virginia's time has 
expired. I now recognize the gentlewoman from Texas, Ms. 
Jackson Lee, for five minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you very much for this 
hearing. And thank you for the earlier work. I remember when 
you introduced the protecting of the purse and all of the 
Democratic Members signed on to it and it is very commendable 
that you are holding this hearing again in a different 
Administration.
    But we do know that the king of moving money around and 
ignoring the needs that Congress dictated for their 
appropriations to be used for certainly was the past 
Administration. And I guess, as we all know, the greatest abuse 
was the $391 million from Ukraine that was utilized as a 
carrot, as a stick, as a brick against the President of Ukraine 
in order to find out dirt on the family and/or present holder 
of the Presidency of the United States.
    I think it is important and as Members of Congress, we look 
at this in a non-partisan manner to constitutionally protect 
what our duties happen to be.
    But let me add some additional affronts. And that is the 
diminishing and the not using and not helping to support 
different agencies that dealt with civil rights. Particularly, 
the Civil Rights Division of the DOJ. The last Administration 
was particularly prone to not want to have that kind of 
appropriation going on. This was not precisely an 
appropriation, but it was language in attempting to get 
violence, gun violence as a national health issue. Thank 
goodness we have a new day.
    So, it can also be policy that may generate into the 
Congress' decision on funding. So, I want to ask the question, 
how diligent we should be under the Constitution to ensure that 
some of the underbelly of the agencies, the subagencies like 
the Office of Civil Rights, that we can also delve into and 
find out whether or not there is a cutting, there is a non-
expenditure, there is sort of a smothering of these agencies 
unbeknownst to Congress who has expended funding for them.
    Why don't I start with the representative from the GAO to 
answer that question, Mr. Perez. Is that Ms.?
    Ms. Emmanuelli Perez. Yes, this is Ms. Perez, no problem. 
Yes, absolutely. So, part of what we see, which is in the power 
of the purse bill that had been, you know, presented in the 
last session that we would continue to recommend is really 
having agencies not only have OMB publish the apportionments so 
that we have information specifically on those accounts in that 
real time basis, but also having agencies report on their 
obligations with respect to shutdowns, report on their expiring 
and canceled appropriations, because that would really give 
Congress and GAO as well as other watchdogs, the ability to 
look at what is occurring really with sort of that lifespan of 
the appropriations as Congress has set out. So, these are the 
types of information that we think would be helpful to Congress 
in being able to conduct its oversight.
    Ms. Jackson Lee. Thank you. I am going to ask this last 
question to both Ms. Hempowicz and Ms. Reynolds. How important 
is it and, Ms. Perez, indicated that we need to do the subset, 
the subagencies, if you will, because I think that is where 
havoc can really be activated. How important is it for 
Congress' due diligence, but more importantly, for the vision 
and/or the right running of Congress that all of these agencies 
that are not well-known that are doing lifesaving actions, are 
dealing with civil rights, are dealing with civil liberties, 
protecting the LGBTQ community, how important is it for 
Congress to dig into how moneys are obstructed or not used for 
those purposes? Ms. Hempowicz?
    Ms. Hempowicz. It is incredibly important. I mean, you 
know, I can't really expound on that. It is just so critical. 
It is so critical that when Congress appropriates money, the 
executive branch spends it as Congress intended. And so, to do 
that to make sure that is happening, you need transparency to 
make sure that--to facilitate your oversight.
    Ms. Jackson Lee. And I would add the religious community as 
well and protecting them. Ms. Reynolds?
    Dr. Reynolds. The only thing I will add is that part of why 
it is so important is because there can be divergence between 
what Congress asks for and what the executive branch does for 
reasons from nefarious to routine. And you need good 
information to be able to figure out all of those things 
because, again, the potential here for gaps is inevitable. And 
that is part of why it is so important that you get the 
information you need to make good decisions.
    Ms. Jackson Lee. Thank you very much. Mr. Chairman. I think 
my time has expended and thank you for this hearing. I yield 
back.
    Chairman Yarmuth. Thank you, Ms. Jackson Lee. Your time has 
expired. I now recognize the gentleman from Wisconsin, Mr. 
Grothman, for five minutes.
    Mr. Grothman. Just a general question. Could anybody give 
me a suggestion as to how we can better improve identifying 
areas that we feel are wasteful or lead us to, really, I think 
the biggest problem we have here, reduce overall spending?
    Ms. Hempowicz. I can jump in with a suggestion. I would--
and this might be surprising--but I would consider, you know, 
raising staff pay. I think one area where--one of the reasons 
why Congress is suffering here is because congressional staff, 
you know, there is just I think it is called brain drain. There 
is such high turnover that you don't have oftentimes the 
expertise your staff needs to be to be doing these programs 
effectively. And so, that would be my suggestion.
    Mr. Grothman. Go ahead, I'm sorry. Go ahead.
    Ms. Emmanuelli Perez. Oh, I'm sorry, sir. And if I could, 
from GAO's perspective, we certainly have the work that we do 
annually on the duplication overlap and fragmentation, as well 
as really just generally all of our work looking at, you know, 
fraud, waste, and abuse. In addition, we have got the high-risk 
series and just a number of other areas. So, we certainly would 
urge you to, you know, work with GAO to help you identify any 
of those subjects.
    Mr. Grothman. Nobody could argue that right now Congress is 
not overspending substantially. Obviously, things have gotten 
worse since we got rid of the sequester. Could you give a crack 
at whether that was a big mistake or not?
    Ms. Emmanuelli Perez. Well, we certainly did some work as 
well looking at sequestration and the effect. And one of the 
things that we did find is because sequestration is an across 
the board cut, it is difficult then for agencies to be able to, 
you know, adjust to it and to be able to react to it because 
they are not able to identify or prioritize what Congress may 
want them to do, as well as agencies' programs are. So, in that 
sense, while it may be effective for some cutting spending, it 
does have an across the board impact which does make it 
difficult to prioritize.
    Mr. Grothman. Anyone else want to take a crack at that. I 
am not sure I buy it, but.
    Mr. Paoletta. I could take a crack at how to spend less 
money. You know, the Impoundment Control Act, from my 
perspective, Congressman, as I said, it disincentivizes. It 
actually makes it illegal to try and save money, in my opinion, 
right? If you get $100 billion, and you can do the program for 
$70 million, you get that $30 million. And if you put a pause 
on it, you deferred those funds to make it a better-run 
program, and you have those $30 million left over, you have to 
spend those funds by the end of the period of availability, 
unless you send it up for recission, and those never get 
passed. So, there is no incentive to do a program to make it 
better, to do it cheaper because that money has to be spent, 
per the ICA, by the end of the year.
    In the old days, if you did it and got it done, and you had 
money left over, so long as you accomplished the purposes of 
that program, it could lapse. Whenever you try and save money, 
the ICA makes it illegal. So, there is no incentive to save 
money running federal programs.
    Mr. Grothman. Why won't we reinstate it?
    Mr. Paoletta. Well, that is what the ICA does right now, 
sir. And so, my view is one of the tools could be if you can 
run a program for less money, those funds should lapse. And if 
Congress wants to reappropriate it after it lapses with some 
fast track, they can do that. But I think the ICA as written 
right now is a terrible law.
    Mr. Grothman. OK.
    Ms. Emmanuelli Perez. So, we would disagree with that 
because in the sense, the ICA does permit you to propose those 
for recissions. And we do have statistics that show how 
Congress enacts recissions, as well as, you know, historically 
how Congress would also enact recissions that were proposed by 
the Administration. So, we do feel that that act does have the 
opportunity for the executive branch to identify that type of 
situation.
    Mr. Grothman. OK, thank you. I give it back to the 
Chairman.
    Chairman Yarmuth. I thank the gentleman. His time has 
expired. And I now yield myself 10 minutes for questioning. And 
I am going to begin by yielding to the gentleman from North 
Carolina for questions, Mr. Price.
    Mr. Price. Well, thank you, Mr. Chairman. Since we are not 
going to have another round, I want to just suggest a question 
that our witnesses could usefully explore for the record. And 
that has to--but I think we must raise it. And that is the--I 
don't know if Mr. McClintock is still on the call, is he? But 
he raised questions suggesting that congressional projects or 
earmarks were somehow constitutionally infirm, constitutionally 
questionable. And I just think we have to get a response on 
that from our witnesses for the record.
    My view has always--I was stunned by that. My view has 
always been that the constitutional argument ran in the other 
direction, that there was something very questionable about 
this kind of arbitrary denial of the power of the purse. I 
don't imagine that earmarking is constitutionally required, but 
I certainly can't imagine that it is constitutionally denied.
    Mr. McClintock said that Congress appropriates and the 
executive branch spends. Well, an earmark or a congressionally 
directed appropriation is an appropriation. It is just a more 
precise and more specific kind of appropriation. And the 
executive agency, of course, still executes that project.
    So, I just think we need to clear that up because we are 
embarking on this and I view it as a reclaiming of the power of 
the purse and, therefore, a very positive affirmative act. And 
I am glad that both parties in the House, the majorities of 
both parties in the House, have agreed with that. But if we 
could ask our witnesses to submit some kind of commentary on 
that for the record, I think it would be very useful.
    Chairman Yarmuth. We would be happy to do that. I thank the 
gentleman.
    So, reclaiming my time, I want to mention I have been 
informed by counsel just in relation to the last exchange with 
Mr. Paoletta, that the Impoundment Control Act specifically 
allows for deferrals to achieve savings through greater 
efficiency of operations. So, there is an opportunity to do 
that under current law and ICA law.
    So, I want to respond to a couple of things because one of 
them just doesn't pass the BS test in my opinion. And that is 
the claim that the Ranking Member made and I think Mr. Paoletta 
made also, that the impoundment of refusal to spend $1.4 
billion on the border wall had somehow exacerbated or caused 
the current situation at the border. And the notion that in 100 
days that that 1.4 billion could have been spent and to in any 
way affect the flow of people who are trying to enter the 
country is just absurd. I am sorry, that is just crazy.
    I am not defending what the Administration does and GAO 
will have a response to us again in a short period of time as 
to the legality of what he did. But the idea that that is 
somehow connected to the situation at the border is really 
ridiculous.
    And I do want to respond also to Mr. Feenstra. I don't 
think he is with us any longer, but, you know, when you compare 
what a state government's fiscal constraints are or a local 
government or a business or a household, as many people always 
do, it is not a valid comparison to the federal government. The 
federal government is the issuer of currency. All of those 
other either corporations or government entities, are users of 
currency. They cannot create dollars. The U.S. Government can 
and does, and we do it every day. And the idea that somehow, 
you know, the constant refrain is that we are piling debt on 
the future generations, I have said this many times before, we 
have been accumulating debt in this country for 230 years. Not 
one person has ever been asked to pay up. Not one person.
    And when the national debt reached $1 billion under Abraham 
Lincoln, I am sure a lot of people were saying that same thing. 
When it reached $1 trillion under Ronald Reagan, I know there 
were people saying the same thing because I was around then. 
But the fact is that what many people refer to as debt is an 
accounting device. It represents all of the money that the 
federal government has injected into this country over its 
history minus the taxes. And when we talk about debt as a 
percentage of GDP, I think many, many economists now are saying 
that is the wrong measure. It doesn't mean anything. And I 
think you will get agreement from that from the Federal Reserve 
Chairman and many others.
    Japan's GDP ratio, debt to GDP ratio, is 240. Japan has 
very low interest rates. They have 0 percent interest rates and 
so they pay on their securities they issue. Zero interest rate. 
They have very little inflation. And their currency is stable.
    So, again, we throw around all of these things that kind of 
we have been living with for the last 50 or 60 years these 
notions that really don't reflect the way the federal money 
supply works, and how the federal debt in emphasis what they 
mean. So, I throw that out. We can have a hearing on that at 
some time. I actually intend to do that.
    I do have a question for Ms. Emmanuelli Perez. In your 
testimony you recommended that Congress require that OMB 
publicly post all apportionments of executive branch 
appropriations. You also noted that many of GAO's inquiries 
into potential violations of the Impoundment Control Act 
include requesting the relevant apportionment documents. Can 
you explain why a greater apportionment transparency would be 
beneficial for GAO, Congress, and the public?
    Ms. Emmanuelli Perez. Absolutely, sir. So, in order to have 
the information to provide you and the Congress, with timely 
decisions, we need to have timely access to information. So, 
having those apportionments available publicly means that as 
they are being published, as they are being carried out, we can 
have access to that information. We can be looking at programs 
as things are coming to our attention or with respect to any 
other work we are doing. So, it definitely gives us the 
opportunity to give you more timely advice, to give you timely 
decisions in other work that we do.
    Chairman Yarmuth. And so, you would have a much easier time 
of flagging potential problems with potential violations in the 
law. We would have a much easier----
    Ms. Emmanuelli Perez. Yes.
    Chairman Yarmuth.----time doing oversight of the money that 
we appropriate.
    Ms. Emmanuelli Perez. Yes, absolutely because if we look at 
an apportionment and we see something that seems to be 
anomalous, then we can question it right away. We can say this 
seems different. We can compare it to prior years. That is one 
of the key things you can do in looking at the Impoundment 
Control Act issues is look at the prior rate of obligations. 
See how the program was working in prior years. So, that again, 
having that information up front is going to help us identify 
potential problems.
    Chairman Yarmuth. Thank you. Now, Mr. Paoletta said 
something which I think is very true and that is that Congress 
doesn't do a very good job of specifying what we want when we 
allocate money a lot of the times. For instance, and I don't 
know if this the case, but I don't have any idea how the 
language of the law is read. I don't know whether it said new 
law, whether it said replacement. I don't know. You may know, 
Mr. Paoletta. And I am not trying to say that is justification 
for anything because it is clearly true that, you know, we 
don't always write the laws in the best way. We do try to have 
report language that clarifies some of those more detailed 
intentions when we know them. So, I think that your advice to 
Congress to be very--as clear as we can be as to how the 
executive branch is supposed to implement those policies is 
well taken and considered. So, I appreciate that.
    Mr. Paoletta. Thanks, Chairman.
    Chairman Yarmuth. I am going to--no, go ahead and talk to 
it.
    Mr. Paoletta. No, thank you, sir, for that. Thank you.
    Chairman Yarmuth. You are welcome. You are welcome to 
respond, yes. But I have no other questions and I have vented 
already enough. So, I am going to thank the witnesses for their 
testimony, their responses. I thank the Members for their 
questions.
    And once again, I will reiterate to the Ranking Member and 
every other member that the next hearing of the Budget 
Committee on the Budget Committee, I will be--for that hearing, 
I will be in the budget room. Mr. Smith, I will join you there 
and anyone else who wants to join us. You are absolutely right. 
We have equipped the hearing room so that we can hold hybrid 
hearings in a much better way than we could have in the 
beginning of the pandemic. So, we will do that.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Yarmuth. And with that, if there is no further 
business before the Committee, this hearing is adjourned.
    Oh, Mr. Carter showed up. Wait a minute.
    Mr. Carter. I am sorry, Mr. Chairman. That is OK.
    Chairman Yarmuth. OK, sorry. We will give you a little 
extra time next time.
    Mr. Carter. Well, I am just glad I have got something I can 
hold over your head, and don't worry, I will do it.
    Chairman Yarmuth. Thank you all. And once again, thanks to 
all the witnesses. The meeting is adjourned.
    [Whereupon, at 3:30 p.m., the Committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
